<html>
<title> - OVERSIGHT HEARING ON THE TENNESSEE VALLEY AUTHORITY AND THE RECENT MAJOR COAL ASH SPILL</title>
<body><pre>[Senate Hearing 111-1177]
[From the U.S. Government Publishing Office]





                                                       S. Hrg. 111-1177

                        OVERSIGHT HEARING ON THE
                       TENNESSEE VALLEY AUTHORITY
                  AND THE RECENT MAJOR COAL ASH SPILL

=======================================================================



                                HEARING

                               before the

                              COMMITTEE ON
                              
                      ENVIRONMENT AND PUBLIC WORKS
                      
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JANUARY 8, 2009

                               __________

  Printed for the use of the Committee on Environment and Public Works


       Available via the World Wide Web: http://www.gpo.gov/fdsys

                        
                              __________


                     U.S. GOVERNMENT PUBLISHING OFFICE 

93-852 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                     
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                    
                 Ruth Van Mark, Minority Staff Director
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            JANUARY 8, 2009
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...    10
Lautenberg, Hon. Frank, U.S. Senator from the State of New Jersey    12
Isakson, Hon. Johnny, U.S. Senator from the State of Georgia.....    18
Merkley, Hon. Jeff, U.S. Senator from the State of Oregon........    18
Alexander, Hon. Lamar, U.S. Senator from the State of Tennessee..    19
Udall, Hon. Tom, U.S. Senator from the State of New Mexico.......    20
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..    21

                               WITNESSES

Kilgore, Tom, President and Chief Executive Officer, Tennessee 
  Valley Authority...............................................    22
    Prepared statement...........................................    25
    Responses to additional questions from:
        Senator Boxer............................................    30
        Senator Udall............................................    64
        Senator Inhofe...........................................    72
Smith, Stephen A., DVM, Executive Director, Southern Alliance for 
  Clean Energy...................................................   117
    Prepared statement...........................................   120
    Response to an additional question from Senator Boxer........   262
    Responses to additional questions from:
        Senator Udall............................................   263
        Senator Inhofe...........................................   267
Rose, William ``Howie,'' Director of Emergency Management 
  Services, Roane County, Tennessee..............................   269
    Prepared statement...........................................   273
    Responses to additional question from:
        Senator Boxer............................................   277
        Senator Udall............................................   277
        Senator Inhofe...........................................   277

                          ADDITIONAL MATERIAL

Statement of the U.S. Environmental Protection Agency............   287
Statement of Tetra Tech, Inc.....................................   296

 
  OVERSIGHT HEARING ON THE TENNESSEE VALLEY AUTHORITY AND THE RECENT 
                          MAJOR COAL ASH SPILL

                              ----------                              


                       THURSDAY, JANUARY 8, 2009

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Building, Hon. Barbara Boxer (chairman 
of the committee), presiding.
    Present: Senators Boxer, Inhofe, Lautenberg, Isakson, 
Carper, Alexander, Merkley, Udall.

            OPENING STATEMENT OF HON. BARBARA BOXER,
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Good morning, everyone. I would like to 
begin today's hearing by acknowledging and welcoming some of 
the people who live in the area devastated by the coal ash 
spill in Tennessee. And I know Senator Alexander has just 
greeted you all extensively. I had the privilege of meeting 
some of you in my office yesterday. And I see how this disaster 
has forever changed your lives, and we hope not forever, but 
for now, certainly. They are farmers, ranchers, nurses, and 
parents. And I would like to ask Bridget, Melinda, Ron, Teresa 
and Terry to please stand and be recognized so people 
understand what we are talking about here is about real 
people's lives.
    The beautiful place where they lived was instantly 
transformed by a wall of ash, water and debris. They are 
anxious about the spill's potential effects on health, 
especially to children, and they are anxious about their 
livelihoods. They sent me personal statements that I would like 
to enter into the record, and I will do so if there is no 
objection at this time.
    [The referenced material follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Boxer. I would also like to take a moment to say 
that our thoughts go out to all the people affected by the 
spill.
    We have two new colleagues who are sitting in on this 
meeting, Senator Udall, Senator Merkley. And they are headed to 
this Committee once we get the formal committee resolutions 
done. And I know Senator Inhofe was anxious for me to introduce 
you and I think you are going to, as we saw yesterday, be very 
interested in the work that we do here. Welcome.
    Let me for a moment describe what happened at 1 a.m. on 
Monday, December 22d, 2008 near the Kingston TVA coal-fired 
power plant. An earthen wall failed on a 40-acre surface 
impoundment holding coal ash. More than one billion gallons of 
waste rushed down the valley like a wave, covering more than 
300 acres. The volume of ash and water was nearly 100 times 
greater than the amount of oil spilled in the Exxon Valdez 
disaster. Let me mention that again. The volume of ash and 
water was nearly 100 times greater than the amount of oil 
spilled in the Exxon Valdez disaster.
    We have an image to show you the scale of this enormous 
coal ash spill. It looks like a giant mudslide. You can just 
get the sense of the power of that mud.
    I would like to show you a few examples of the devastation 
left behind in the wake of this disaster, what happened to some 
of the homes. The flow of toxic ash and water impacted 42 
parcels of property, destroyed 3 homes, damaged 9 others, 
covered roads and railroads, harmed fish, and polluted the 
Emory River. Thankfully, no serious injuries were reported. 
This disaster happened while the community slept. And yesterday 
in my meeting, Senators, the good people from the community 
said that this is what they said, they shudder to think of what 
could have happened if this wall had failed on a summer's day, 
when parents and children were playing on the shore, swimming, 
and fishing in boats. Because the coves that are the main 
attraction to the community, where the kids play and they fish, 
were instantly covered in this horrible polluted mess.
    Senator Alexander, I look forward to working with you on 
the recovery efforts. Anything that you need from me, you have. 
I will work with my colleagues and I know they feel the same.
    Today, I would like to explore several key questions, 
including: How did this spill happen? What are the impacts? How 
is the area going to be cleaned up? How do we ensure events 
like this do not happen again?
    Now, TVA officials say they are investigating why the dam 
surrounding the ash collapsed. So far, they have said that 
heavy rains and freezes may have triggered the disaster. But 
the Nashville Tennessean reported on January 4th that the same 
earthen wall had smaller blowouts in 2003 and 2006. The people 
that I met yesterday said that they knew that the impoundment 
had problems.
    Following the 2003 event, TVA rejected several 
recommendations for retrofitting the impoundment because they 
deemed them too costly, with estimates up to $25 million. We 
must find out why this wall failed. Because to clean this up, 
Senators, makes $25 million just look like pennies. That is 
going to be the cost of this cleanup.
    What are the spill's impacts? This depends on what was in 
the coal waste. I have a jar of the sludge, I asked them to 
bring it, and I am going to pass it around to everybody. I just 
want you to take a sense of this, just a tiny little bit of 
this. I will give it to Senator Inhofe and ask the staff if 
they want to view it, while I talk, just pass this around. And 
what I would like to do is tell you what is in this coal ash 
that you will be taking a look at.
    We have a chart that shows you this. This is the 
contaminants that exist in coal ash. And Senators, I beg you to 
take a look at this, because this is why the community is so up 
in arms. This isn't harmless mud. Arsenic, beryllium, cadmium, 
chromium, lead and mercury. And I need to read to you what we 
know about these elements. Arsenic, cancer of the lungs, 
bladder, skin, liver, kidneys, harms the liver, kidneys and 
cardiovascular system. Beryllium, cancer of the lungs, harms 
the respiratory and immune system. Cadmium, cancer of the 
lungs, harms the liver, kidneys and bones. Chromium, cancer of 
the lungs, harms the liver and kidneys and circulatory and 
nervous systems. Lead, harms the nervous system, especially in 
children and reproductive and developmental systems. And some 
of the people who visited me talked about the pregnant women 
who live in this area. Mercury harms the nervous system, 
especially in children, impairs thinking, language and motor 
skills. So that is what is in this.
    And the irony of all this is that the reason we have this 
waste, there is a good reason why we have it, we want to get 
that waste out of the air. That is why we have these ponds. So 
the huge irony here is, under the Clean Air Act we are keeping 
this out of the air because it is dangerous. And now, it is 
spilled. So that is what you have to think about. We worked 
hard and long, and so did TVA, to get those elements out of the 
air and keep it safe, and this is what has happened.
    At the spill site, the U.S. EPA has found river water with 
arsenic, and I mentioned all of these elements, these 
pollutants. The longer this ash stays on the ground, and this 
is another point, the more it can dry out and blow around. Some 
of the heavy metals in ash can harm people when inhaled.
    We have to get a complete picture of contaminants in 
different parts of the coal spill. Some types of coal have more 
contaminants than others, and TVA used this impoundment to hold 
coal that was combusted over a number of years, different kinds 
of coal. So it's not just a one size fits all analysis here. 
Hot spots of contamination could be buried just beneath the 
surface of the spill.
    This raises another very important question: how is this 
disaster going to be cleaned up, how is this area going to be 
restored? Seeding the ground with grass, which is what TVA has 
said thus far, maybe today they will have another solution, is 
not a permanent solution. A cleanup can be done right, or it 
can be a ticking time bomb. This area must be cleaned up to 
address the potential long-term threats to the families who 
live there.
    And we must ensure that this type of disaster does not 
happen again. We need to have standards in place to make sure 
that coal ash is managed and disposed of properly, including 
the use of dry storage rather than wet storage, which the 
Kingston Plant used.
    Over 130 million tons of coal combustion waste is produced 
in the U.S. every year. This is the equivalent of a train of 
boxcars stretching from Washington, DC. to Melbourne, 
Australia. A 2007 EPA report found 67 ash impoundments or 
landfills in 23 States that have caused or were suspected of 
causing contamination, including to ground and surface waters. 
EPA knew of dozens of other sites, but lacked sufficient 
information to single out the cause.
    For three decades, EPA has been looking at the issue of how 
to regulate combustion waste. The Federal Government has the 
power to regulate these wastes, and inaction has allowed this 
enormous volume of toxic material to go largely unregulated. 
State efforts are very inconsistent, and as more and more toxic 
material is removed from coal combustion, it is critically 
important that protective standards for coal ash waste be 
established.
    I intend to ask Lisa Jackson, our EPA nominee, about her 
feelings on this matter. And I do intend to work with all of my 
colleagues on this Committee and in the Senate, across party 
aisles and with the incoming Administration to ensure that the 
necessary action is taken to protect our public health and the 
environment.
    The disaster in Tennessee proves the point that we cannot 
avoid the costs associated with managing coal ash. It is far 
better to invest in preventing disasters like this than 
spending more to clean them up.
    And the last thing I want to show you is the mission 
statement of the TVA. I want to read part of the mission 
statement. The Tennessee Valley Authority's authorizing statute 
provides that the TVA's mission includes ``being a national 
leader in technological innovation, low-cost power and 
environmental stewardship.'' Now, I just want to put my own mea 
culpa out here. We didn't really do much in the first 2 years I 
held this gavel on looking at TVA. I am sorry. I am really 
sorry. I should have. I assumed a lot that I shouldn't have 
assumed.
    Well, that day is over. We are going to work with TVA, we 
are going to make sure it lives up to this, low-cost power. I 
would add environmental stewardship means alternative ways of 
getting power. We are going to work together. It is going to be 
a good relationship.
    But I have to say, I assumed too much about their 
environmental stewardship, and I really do apologize about it. 
We had a lot of oversight. That was one area I didn't pick up 
on.
    So I want to thank again everyone who is here. I really 
want to thank TVA for coming, the community for coming. And we 
are going to have an excellent hearing, and I will turn it over 
now to Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman.
    Of far greater significance, I think everyone here should 
know that a great event happened last night, Senator Boxer had 
her third grandchild. I have 12, so you have a target out 
there.
    I want to welcome Senators Udall and Merkley, both here. I 
have heard so many good things about you, I am getting anxious 
to get to know you better. And I think your western influence 
on this Committee will be very helpful, too, because there are 
a lot of huge issues that are out there.
    I probably am not going to be here for the whole hearing, 
Madam Chairman, because I know that Senator Alexander and 
Senator Isakson are geographically a little closer to some of 
these things that we will be talking about during the course of 
this hearing than I am from Oklahoma. I want to welcome you, 
Mr. Kilgore, and also Bill Sansom. Back when Republicans were 
relevant, I was the Chairman of this Committee, and when we 
confirmed Bill, at that time I think I commented you had 
probably the best credentials of anyone who was ever confirmed 
in that position.
    I agree with the Chairman that what happened at Kingston 
was a tragedy, plain and simple. It was just, the magnitude is 
great, and I think those slides that you showed demonstrate 
that very clearly. We don't yet know the cause of the failure 
of the retaining wall that released over a billion gallons of 
coal combustion waste sludge into the surrounding area, 
including the Emory River, as I understand it. Thankfully, 
there were no injuries, but three homes were rendered 
uninhabitable.
    I want to say to the five victims who are here today that 
there isn't anyone up here that isn't totally in sympathy with 
you and wanting to do everything we can to preclude something 
like this from happening again. And so we just want to wish you 
the very best for the future and see how much help we can be to 
getting your lives back to normalcy.
    I want to make sure that the people are taken care of and I 
think we all feel that way. I think to the extent the incident 
has caused harm to public health and the environment, TVA is 
committed to take the necessary steps to address these 
problems. We will hear about that today. It is essential that 
TVA remains committed to this community long after the media 
has packed up and left town.
    I am pleased the results of air, water and soil testing 
meet EPA standards. I hope, Mr. Kilgore, that you elaborate on 
these and planned future testing as you deliver your remarks. 
In light of this, as would be expected, certain extremist 
groups are exploiting this to further their own political 
objectives, namely to eradicate the use of coal in this 
Country. We go through this all the time in this Committee. And 
I would hope that we would just concentrate on the two things 
that are important, that is taking care of the victims and 
trying to preclude something like this from happening again. 
Coal is absolutely necessary to keep this machine called 
America running. Right now we are 53 percent dependent upon 
coal. So I know there are those who want to use any tragedy for 
their own political purposes. So I just hope that doesn't 
happen, and I look forward to this hearing, Madam Chairman.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    What happened at Kingston was a tragedy, plain and simple. 
We do not yet know what caused the failure of the retaining 
wall that released over a billion gallons of coal combustion 
waste sludge into the surrounding area, including the Emery 
River. Thankfully, there were no injuries, but three homes were 
rendered uninhabitable and there was some additional property 
damage.
    I want to make sure that these people are taken care of and 
that this spill is cleaned up. My first concern is for the 
victims, some of whom I understand are here today. My heart 
goes out to you and I will work to make sure you are treated 
fairly.
    I believe that, to the extent the incident has caused harm 
to public health and the environment, TVA is committed to take 
the necessary steps to address these problems. It is essential 
that TVA remains committed to this community long after the 
media has packed up and left town.
    I am pleased the results of air, water and soil testing 
meet EPA standards. I hope, Mr. Kilgore, that you elaborate on 
these and planned future testing in your remarks.
    In light of this, I also hope that certain extremist groups 
refrain from exploiting this incident to further a political 
objective, namely to eradicate the use of coal in this country. 
We all know that would be a disaster for energy security, for 
jobs, and for the health of our economy. We know how to use 
coal in a clean manner. And as new technologies continue to 
advance, we can use coal to power the American economy while 
maintaining a clean, healthy environment.

    Senator Boxer. Thank you.
    Senator Lautenberg.

          OPENING STATEMENT OF HON. FRANK LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you very much, Madam Chairman. 
Welcome to our friend from the TVA, a very important agency.
    One of the things that happens here with a new Congress, I 
can tell you, now with the strong representation that is in the 
majority, that environment is a major issue for us. We heard 
here yesterday that global warming is threatening the lives, 
and these aren't lives 100 years from now or 200 years from 
now, these are, I was pleased to know that Barbara Boxer, who 
is a dear friend, was blessed with a third grandchild. Though 
Senator Inhofe and I are friends, I want him to know that I 
have 11 grandchildren.
    Senator Inhofe. You are probably still working on it.
    Senator Lautenberg. I am begging, I can tell you.
    [Laughter.]
    Senator Lautenberg. The thing that happened is that this 
spill, this ugly material was allowed to cover areas of 
residence and community and that we wind up, though this spill 
was nearly 50 times bigger than the Exxon Valdez oil spill, I 
was up there very shortly after the ship went aground, and saw 
the devastation that was rendered, and can't imagine what 
something that is 50 times larger is like.
    We heard from our Chairman about what happened to the 
houses as this material seeped into the Tennessee River. And 
one of the pictures had a Christmas wreath on the front of the 
house. That is when people usually enjoy life at a very high 
point, families in particular. And to see it with that 
threatening material almost on the front porch is certainly not 
a sight that any of us like to see.
    And the thing that shocks me, I have to say, that TVA, in 
charge of this facility, should have been alarmed, and I am 
sure they were. But their reaction was that coal ash is not 
harmful and here I quote a spokesman there, does have some 
heavy metals within it, but it is not toxic or anything. Well, 
how would you feel about it if it is your child who breathes 
some of that dust or it penetrated your house walls? Not very 
good.
    I am not suggesting that TVA doesn't care. But the fact 
that anyone can make a statement like that when the plaques 
that the Chairman held up here shows the various elements that 
are in that ash, they are some of the most threatening things 
to life and health that you can find, arsenic, lead, others. 
Terrible. We fight like the devil, and I come from a very 
crowded State, New Jersey, and boy, these chemicals are chased 
down like the most ruthless bandits.
    So we hope that the EPA and TVA can coordinate their 
efforts better, because I think EPA initially also said that 
some of the testing showed that while there were some heavy 
metals in there that it wasn't something to really be alarmed 
about. We challenge that view, and we want to hear from EPA, 
which we will do, and ask that TVA and EPA get the story 
straight, make sure that what we hear is what is developed as a 
result of serious study and investigation.
    I thank you, Madam Chairman, for calling this hearing. It 
is a very, very important issue.
    Senator Boxer. Thank you. I want to place in the record 
three documents here, because Senator Inhofe said that the 
tests looked like the standards were being kept. Now, these are 
EPA samples. The first one, the EPA results of the sediment 
showed levels of arsenic, cadmium, exceeded cleanup goals. That 
is one.
    And the second, which goes on for two pages, and everyone 
is--I am happy to pass these around, the surface water in the 
Emory River, arsenic and other heavy metals violated Safe 
Drinking Water standards. Now, that is not in the drinking 
water at this time. But this is the danger in why we need to do 
a cleanup here, so they don't get in. And some of those heavy 
metals are, in addition to arsenic, beryllium, cadmium, 
chromium, lead, and thallium.
    So I am going to place these in the record so the record is 
clear. The testing is not showing that everything is golden in 
any way, shape or form. These are serious problems.
    Senator Isakson.
    
    [The referenced materials follow:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
           OPENING STATEMENT OF HON. JOHNNY ISAKSON, 
             U.S. SENATOR FROM THE STATE OF GEORGIA

    Senator Isakson. Thank you, Madam Chairman, and 
congratulations on your latest grandchild.
    And welcome to Senator Udall, who I had the privilege of 
serving with in the House, and Senator Merkley. We are glad to 
have you on the Committee as well.
    I would like to thank Lamar Alexander for calling together 
the TVA Caucus to meet with TVA and for the first time for me, 
to be able to see those who were damaged by this spill. I would 
like to welcome, although I know welcome is probably not an 
appropriate word to use for an incident like this, but Tom 
Kilgore is a terrific public servant. I think the Committee 
needs to remember that it was 2005 that this Committee and the 
Congress reorganized the governance of TVA to a working board 
of directors and a CEO. It previously was a three-member 
committee, if I am not mistaken, that pretty much ran TVA up 
until 2005, if I am not mistaken.
    So Tom has come on, he used to be in Georgia, he is an 
outstanding business person, and from the conversation we had 
earlier today with the other members, I am going to applaud his 
early actions in this tragedy.
    As a Georgian, and as a TVA State, I am extremely 
interested in this, because we have 10 such retention areas in 
our State, although none of them are TVA retention areas. They 
are other utilities that operate within the State. And although 
this is a tragedy of immense proportion, it is also a chance 
for us to learn and see to it that it never happens again. I am 
delighted that a person of Tom's stature and ability is there, 
because I know one of his goals is not just to clean up to see 
to it that the citizens are protected and restored and 
reimbursed and made whole, but also to see, too, that this 
doesn't happen anywhere else again in the United States of 
America.
    So, Tom, I appreciate your commitment to that. And as a 
representative of the people of Georgia, where 10 such 
retention areas reside, I am going to work very closely with 
you to make sure we provide that information to other 
utilities, so we do prevent this from happening anywhere else 
in the United States, most appropriately anywhere else in 
Georgia.
    Thank you very much, Madam Chairman.
    Senator Boxer. Thank you so much, Senator.
    Senator Merkley.

            OPENING STATEMENT OF HON. JEFF MERKLEY, 
             U.S. SENATOR FROM THE STATE OF OREGON

    Senator Merkley. Thank you very much, Madam Chair.
    It is clear from the pictures and the statistics the scope 
of the current disaster. I am struck by the numbers of 45,000 
pounds of arsenic, more than a million pounds of barium, 91,000 
pounds of chromium, and that the immediate cleanup is so 
important, given both the concern about immediate contamination 
of water and the dry dust down the road.
    But I am also very interested in the thoughts about how we 
monitor and regulate the 1,300-some other similar sites around 
this Country to avoid such a disaster in the future.
    Thank you for your testimony today.
    Senator Boxer. Thank you.
    Senator Alexander.

          OPENING STATEMENT OF HON. LAMAR ALEXANDER, 
            U.S. SENATOR FROM THE STATE OF TENNESSEE

    Senator Alexander. Thanks, Madam Chairman, and thank you 
for having this hearing calling attention to this.
    I think we are unanimous that what should happen, TVA 
should cleanup this mess, make whole the people who were hurt, 
clean it up quickly and do everything possible to make sure it 
doesn't happen again in the TVA region. And we should help make 
sure it doesn't happen anywhere else.
    But I want to take a long-term view. I hope my contribution 
can be a long-term view in two ways. First to those who are 
hurt. We visited for a little while this morning in my office. 
Among the several things that were said is they hoped that I 
would stay interested after the media left, and after the 
Country went on to another issue.
    I will do that. And I think all of us have a responsibility 
to do that, and I will work with Governor Bredeson, who has 
been on the site. I will work with Mr. Kilgore and with this 
Committee to make sure that this does not get lost in the 
shuffle, that we set clear goals, that we imagine what we want 
Roane County to be 5 years from now, we want it to be a place 
where people are happy to live, where children play where the 
water is clean.
    I live not far from there myself, and I know how beautiful 
it is. We want that to be our goal. That is a long-term goal 
that involves each of you on the front row and everybody in 
Roane County. I pledge myself to that.
    The second thing I would like to do, and I would enjoy 
working with Senator Boxer on this, or others, is turn a short-
term regulatory and management failure into a long-term 
technology development story. What we really need here, and I 
suggested this in an address at the Oak Ridge Laboratory in the 
spring, is a series of mini-Manhattan projects on how we can 
safely and cleanly use coal in this Country to make electricity 
for however long we need to do that, whether it is 20 or 25 
years, while we move to different kinds of energy, or whether 
it is a longer period of time.
    Today, for example, Tennessee gets 60 percent of its 
electricity from coal. And that is very important to us. When I 
was Governor, I used to recruit Saturn and Nissan. I know 
Governor Bredeson has recruited Volkswagen and more recently, 
one of the largest new plants to make the material that will 
create solar cells, poly--well, I don't exactly have the name 
of it here. But it is in Clarksville, Tennessee, a $1.2 billion 
investment. It is polysilicon, is the material. The interesting 
thing about it is it takes a substation for electricity of 128 
megawatts. In other words, if we hadn't had TVA's coal-burning 
capacity, we wouldn't be able to make the material that we hope 
will create the solar energy.
    So what I would like for us to do is to look at each of the 
elements of coal-burning for electricity that creates an 
environmental problem for us and get on a fast-track, I say 
mini-Manhattan project, to solve the problem. The National 
Academy of Engineering has suggested that that be done in terms 
of recapture of carbon, either from sequestration or in some 
other form.
    Another way to do it would be to make solar power equally 
competitive with fossil fuels, as they are doing in the plant 
in Clarksville. Obviously we need to find better ways to deal 
with coal ash. I have put in legislation a little different 
from the legislation that senator Boxer proposed, but still, it 
was to require, Senator Carper and I did, that we have strict 
controls on mercury, on nitrogen, on sulfur and on carbon.
    So if we as a Committee made a massive effort over the next 
5 years to be able to turn this environmental tragedy into a 
technology success story, then maybe at the end of 5 years, we 
could burn coal in a clean way. And it may force us from 
conventional coal plants into a second generation of coal 
plants once we find out what the true cost of burning coal in 
conventional plants is.
    So my commitment is long-term, first to the victims, and 
second to the technology. I look forward to working with the 
Chairman on that, and thank you for the time.
    Senator Boxer. Well, Senator, thank you for your statement. 
It is very heartening to me.
    Senator Udall, then followed by Senator Carper.

             OPENING STATEMENT OF HON. TOM UDALL, 
           U.S. SENATOR FROM THE STATE OF NEW MEXICO

    Senator Udall. Thank you, Madam Chair. And let me thank the 
other members of the Committee, the Ranking Member, for the 
very kind welcoming comments. I did serve with Senator Isakson 
over in the House and I look forward to a good relationship 
with all of you.
    To the victims, this is something that we see in the west, 
these kinds of disasters in a variety of different areas. And I 
want to commit, like Senator Alexander did, to make sure that 
the victims are made whole on this. That is very important.
    I also believe that we need to look at the bigger picture, 
Senator Alexander, in terms of the costs and whether or not we 
should be regulating more here or less. That is, I think, a 
very important part of this debate. The EPA has been looking at 
a number of situations on regulating this type of waste, and 
they haven't done so. Apparently it is the cost is my 
understanding, from the articles, the reason they haven't 
regulated it is because of the cost.
    So when we look at all the energy that is out there, we 
have to look at what are the full costs, what are the 
externalities. Here we are creating huge dumps of coal ash 
waste that aren't really paid for, that aren't worked into the 
system. And I think it is tremendously important that when we 
look at the cost of coal or renewable energy or nuclear we look 
at the full costs that are out there, because we see that those 
costs are big and significant and they add to that picture.
    So I hope as we move down the road that we take our 
regulatory responsibilities seriously and make sure that the 
TVA is doing its job. They say their mission is environmental 
stewardship. In this case, that stewardship has not been very 
good. And I hope we look at the full costs here in terms of all 
of our energy sources, because I think that will guide us into 
the future and to where we need to go.
    I thank you, and look forward to hearing from both of our 
panels today.
    Senator Boxer. Senator, you are so right on the costs. And 
we have to factor in the cost of this type of spill, too.
    Senator Udall. That is right.
    Senator Boxer. Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Chairman Boxer, thank you for bringing us 
together today as promptly as you have on the heels of this 
tragedy.
    To our new colleagues, Tom and Jeff, we are delighted that 
you are here, and I am very pleased that you have chosen to 
serve on this Committee. I think that is great for us, for your 
States and for our Country.
    For our friends from Tennessee who are here today, in the 
New Testament there is a parable about the Good Samaritan. The 
question that is answered in the story of Good Samaritan is who 
is my neighbor, who is my neighbor. You are our neighbors, 
whether you happen to be from Oregon or from New Mexico or 
California or Tennessee or Georgia or Delaware, you are our 
neighbors. We are going to try to do our best to make sure that 
you are treated fairly going forward.
    Mr. Kilgore, I don't know you, I have met you before, but I 
don't know you well. Whatever Johnny Isakson speaks as highly 
of someone as he has of you, I listen to that. I have a lot of 
respect for him and his judgment. If he says that you are that 
good a person, then I generally take that to the bank.
    TVA needs a very good person, a very strong leader. Some of 
my colleagues have heard me say any number of times, 
particularly when we are holding hearings of the subcommittee 
that I lead, along with Senator George Voinovich, the 
subcommittee that deals with clean air and nuclear safety. And 
I won't say that I lecture the nuclear industry, but I say to 
them often, everything that I do I can do better. I think that 
is true for all of us. And when I was Governor of my State, I 
used to tell my cabinet secretaries, if it isn't perfect, 
whatever operation we are talking about, in their office, in 
their department, if it isn't perfect, make it better. And you 
have a big operation to run. Clearly, some things aren't 
perfect.
    We are here today to focus largely on the tragedy that has 
brought these folks on the front row to our hearing. But as 
Senator Boxer and others have suggested, TVA ought to be a role 
model for us. You should be the gold standard. And in too many 
ways, you are not. That is not your fault. You haven't been the 
leader of this company forever. It is a Federal corporation, 
and because it is a Federal corporation, we think you need to 
adhere to higher standards than others. We as elected 
officials, we are expected to adhere to higher standards of 
personal behavior and so forth, and a similar kind of 
performance level should be, or standard, should be set for 
TVA.
    Within the subcommittee that I have been privileged to 
chair, TVA is one of any number of issues or items for us to 
hold jurisdiction over. I just want you to know, and I say this 
not in a threatening way, but just in a very forthright way, we 
are going to be looking closely at what you are doing, and the 
leadership that you are providing and the direction you are 
taking, not just with respect to this instant problem, but with 
the bigger issues.
    I thought Senator Alexander spoke very well, he usually 
does, almost always does. Except when he can't remember the 
word, polysilicon. That is the only time I have ever heard him 
hesitate in 6 years or whatever it has been.
    [Laughter.]
    Senator Carper. But I thought he spoke very well. We want 
you to be a leader. We want you to be the leader in figuring 
out how do we deal with sequestration of CO/2/, we want you to 
be the leader in helping us to find ways to reduce SO/x/, NO/x/ 
and mercury discharges and to meet an aggressive schedule. We 
want you to be the leader in terms of identifying alternative 
forms of energy and supporting that. We want you to be the 
leader in terms of helping the folks that are using your 
electricity to be able to be smarter consumers, whether it is 
smart grid, smart metering, we want you to be the leader in all 
those respects.
    We welcome you here today. We look forward to hearing your 
testimony and look forward to having the opportunity to ask 
questions of you.
    Madam Chairman, I have a statement for the record that I 
would like to append to what I have just said. Thank you very 
much.
    [The prepared statement was not received at time of print.]
    Senator Boxer. Without objection, so ordered.
    What we are going to do is go to, we have two panels, Mr. 
Kilgore is the only one on this first panel. I would like to 
give you about 8 minutes. If you need to go over, that is fine, 
to 10, but no more than that. Then we will have our second 
panel, who will also have similar rules. So go right ahead, Mr. 
Kilgore.

    STATEMENT OF TOM KILGORE, PRESIDENT AND CHIEF EXECUTIVE 
              OFFICER, TENNESSEE VALLEY AUTHORITY

    Mr. Kilgore. Chairman Boxer and Ranking Member Inhofe, 
Senator Alexander, Senator Isakson and other members of the 
Committee, thank you for the opportunity for letting me appear 
and discuss our ongoing work about recovery and cleanup of the 
release of ash at one of TVA's power plant sites.
    The release, as has been noted, followed the failure of a 
retention wall for coal ash that was at our Kingston fossil 
plant in East Tennessee. We are focused on cleaning up the 
release and setting right the things for the people of the 
Kingston community. That is our first focus. We have said we 
will clean it up, and we will start with people first and the 
environment comes right after that.
    I want to assure you that TVA will do a first-rate job of 
correcting the problem caused by the spill. Let me give you 
just a few minutes of chronology. When I was first notified 
about this spill, shortly after midnight on December 22d, I of 
course got out and I was at the site about 45 minutes later. 
And the initial response by the Roane County folks, who are 
here in the room, Howie Rose, the emergency management 
personnel and the county executive there, was tremendous. The 
only good news I had in that whole week was when Howie came in 
about 5 o'clock and told me that everybody was accounted for 
and there was no serious injury. We will always be grateful for 
their prompt and professional response.
    And of course, our first concern was for the safety of our 
neighbors in the area. It was that good news that there were no 
injuries requiring medical attention. Our first priority was to 
reach out to the people immediately impacted, especially to the 
three families who lost their homes. We then assigned teams of 
employees and retirees to be the points of contact for every 
affected family. In the Kingston community, we opened an 
outreach center that is open 7 days a week for anyone with 
property damage, a claim, a question or a concern. And our 
executives are out there regularly, our CFO was out there 
yesterday, our senior executives.
    On the operation side, we began work that day to place 
barriers to minimize the movement of ash and begin the cleanup. 
We are using the National Incident Management System approach 
and a number of Federal, State and local agencies are onsite 
sharing information and monitoring our work. These agencies are 
also conducting their own water, air, soil testing and sharing 
their findings. We fully realize that if there is a difference, 
that EPA and the Tennessee Department of Environment and 
Conservation, their results trump ours, that if there is a 
difference, they are the ones that have the official data.
    These agencies are all sampling the results for drinking 
water and it shows that the municipal water in the area 
continues to be safe. Mobile air testing showed that 
particulate levels in the area are far below applicable 
standards. That is good, but it doesn't mean that we can rest, 
we have to keep it that way.
    While the ash material deposited offsite is not classified 
as a hazardous waste under the standards of the Environmental 
Protection Agency, it is meant to be contained, and I don't 
want to minimize that. We are working 24 hours a day, 7 days a 
week to clean this up.
    It is an important recovery phase for the impacted areas of 
about 275 acres. We are working on an independent analysis of 
the cause and the long-term plan for full recovery and 
restoration. We have tried to do this, we have tried to focus 
on outreach to the community, containment, recovery and 
prevention. We have, like Senator Isakson mentioned, we also 
have other dikes that are not like this, but we are inspecting 
those to make sure that we don't have problems there.
    As you know, TVA is a corporate agency of the United 
States, the Nation's largest public power provider, working 
with 158 local power distributors. TVA is funded by the 
ratepayers and receives no appropriations. To supply 
electricity to our region, TVA uses a mix of generating 
sources. About half of our Nation's electricity is generated 
from coal and TVA has a similar situation.
    While we are working to increase our renewable and carbon-
free generation, about 60 percent of TVA's generation this year 
will be from coal. And like utilities around the Nation, we 
must manage the ash that is a byproduct of that coal-fired 
power production.
    TVA has been a part of the Kingston community since the 
plant was built in the 1950s. It is our intent to stay there 
and finish the job of cleaning this up and do it right. The 
Kingston plant was built in accordance with congressional 
authorization, primarily to meet the defense needs of the 
Nation at the time. Specifically, Kingston met the need to 
provide power for the production of atomic defense materials at 
Oak Ridge, Tennessee.
    The 300 TVA employees who live and work in the area care 
deeply about their community, as I do and as we all do. And as 
I said at the beginning of my comments, we will do a first-rate 
job of correcting the problems caused by the spill. It is not a 
time when we hold our head high, but it is a time when we will 
look our neighbors in the eye and say, we will stay on the job 
until it is finished. We are going to do this and do it right.
    Thank you, and I look forward to any questions you might 
have.
    [The prepared statement of Mr. Kilgore follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Boxer. Thank you very much.
    Mr. Kilgore, January 2008, dike stability report for the 
Kingston plant states that impoundment walls failed in 2003 and 
2006 due to ``excessive seepage.'' Walls on this same 
impoundment failed in December and caused this disaster. A 
January 4th Tennessean article found that TVA chose a cheap fix 
to those earlier problems that I cited and states that TVA has 
known about ``some seeps along the toe of the dike since the 
early 1980s.''
    Knowing what you know now--do we have that article? We are 
going to put that article into the record from the Tennessean.
    [The referenced material follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Boxer. Knowing what you know now, would you have 
taken some different steps than you took?
    Mr. Kilgore. Madam Chairwoman, I don't know that until we 
finish the failure investigation. Obviously those things 
concern me, some of them I have reviewed very hastily while we 
are trying to reach out to the community. We had outside 
experts look at that. What I am interested in finding out is 
whether or not the mechanism was the same, whether the 
location. Those locations were on the west side of the dike. It 
appears to me, just from a layman's standpoint, that the dike 
went north. So the location appears to be different.
    We had outside experts help us with those fixes. The most 
expensive solution wasn't chosen. Obviously that looks bad for 
us. I would like to get the failure investigation complete and 
know exactly what the cause was.
    Senator Boxer. OK, well, let me just simply respond to your 
answer. If I was sitting there and somebody said do you wish 
you would have done more to stop this, I would say yes. Let me 
go on.
    Mr. Kilgore, TVA's Kingston power plant has been one of the 
top 100 polluting facilities in the Nation in 4 of the last 5 
years, according to the Federal Toxic Release Inventory data. 
From 2002 to 2006, Kingston released over 37 million pounds of 
toxic pollution and the size of this spill, am I right in 
saying it is more than a billion gallons? Is that correct?
    Mr. Kilgore. You could measure it that way. We measure it 
in cubic yards, because this is mostly solid material.
    Senator Boxer. Well, what if I did it in gallons?
    Mr. Kilgore. Measured in gallons, that would be 
approximately correct.
    Senator Boxer. OK. Because when you look back in the 1970s, 
when there was a terrible breach of a dam in West Virginia, 
that was a very small number of gallons. It was nowhere near 
this. A lot of people got killed in that one, and we are so, as 
you say, fortunate in this particular case in terms of 
timeframe.
    But the point is, given the facility's high volume of 
waste, do you agree it makes sense to invest in strong waste 
management practices, including protections like those 
administered by EPA at ordinary landfills, which I might say do 
not have this level of toxic waste in it?
    Mr. Kilgore. Yes, ma'am. We are in the process of investing 
hundreds of millions of dollars to put scrubbers on this plant, 
in reference to your comments about cleaning it up.
    Senator Boxer. Scrubbers----
    Mr. Kilgore. That is to put scrubbers on the plant.
    Senator Boxer. Well, that is air pollution.
    Mr. Kilgore. That is air pollution.
    Senator Boxer. I am talking about the--I mean, that is 
wonderful and we all applaud that and we want you to do that. 
But that even gets us more waste, more ash. So I am asking you 
about the safe disposal of the ash. And I am saying to you, 
would you think it would make sense to do the type of 
protection that you have in an ordinary landfill that doesn't 
even have as much toxins.
    Mr. Kilgore. As we go forward to clean this up, I am sure 
we will look at that option, every option. We have looked at 
several options to clean this up. We don't anticipate going 
back with that same design.
    Senator Boxer. Well, let me make a suggestion. And I think 
that Tom Carper really picked up on it and I want to thank him. 
I am so proud that he is going to head the subcommittee, 
because we are going to work with you in the future.
    It seems to me that TVA ought to be a leader here. It may 
be that eventually we all decide on a bipartisan way or maybe 
it splits across regions, we don't know, that we should control 
this waste the way we do other waste, that it should have a 
liner or it should be safer to protect the constituents of our 
people who have the coal plants.
    And I would like to say to Senator Inhofe, I don't know one 
Senator who said that we are not interested in moving toward 
cleaner coal. Everyone I know, including myself, we want to see 
clean coal and safe coal, just like we want to see safe nuclear 
energy, all the rest. We need it all. It has to be safe.
    So I think that is what we are really after. So what we 
would like to see, at least some of us here, maybe all of us 
here, is for TVA to step out, be a little bold, say, you know 
what, we are a quasi-governmental authority here. We want to be 
the leader. So before we pass some more, maybe we won't, but we 
might say from now on, we want those rules in place that are 
the same rules at a hazardous waste site. Wouldn't it be great 
if TVA were to take these steps, if you felt it was warranted. 
So I just ask you that.
    Then my last question on this round, I want to ask about 
problems at other storage facilities that you have. First of 
all, how many storage ponds do you have in the whole system?
    Mr. Kilgore. We have 11 coal plants, five have dry ash 
collection and six have wet. So outside of Kingston, we would 
have five dry and five wet.
    Senator Boxer. And how many wet ponds do you have?
    Mr. Kilgore. We would have six.
    Senator Boxer. Because I know in this plant you have 
several holding ponds. It is not just one pond.
    Mr. Kilgore. Yes, ma'am, that is correct.
    Senator Boxer. So you have six others, including 
everything?
    Mr. Kilgore. Six locations.
    Senator Boxer. No, I am not asking you that.
    Mr. Kilgore. I know.
    Senator Boxer. How many ponds, holding ponds?
    Mr. Kilgore. I don't have that information.
    Senator Boxer. Give me a sense of it. Is it 100? Is it 40? 
Is it 1,000?
    Mr. Kilgore. It would be two or three per site. So 6, I 
would guess about 20, probably.
    Senator Boxer. OK, about 20. Do you, has TVA had potential 
problems or wall failures at impoundments in other facilities?
    Mr. Kilgore. We have not, to my knowledge. We are looking 
at those. We have an independent investigator looking at those. 
We have had since this occurred.
    We have one or two other places that concern us, because we 
have a wet spot on the dike. And those are getting our 
attention right now.
    Senator Boxer. Good. Would you please provide a list to 
Senator Carper's subcommittee and to the full Committee of all 
potential or known weaknesses at other impoundment or landfills 
and the steps you have taken or will take to address these 
potential problems?
    Mr. Kilgore. I will be glad to.
    Senator Boxer. Thank you, Mr. Kilgore.
    Mr. Kilgore. And could I say that we will be glad to work 
with you in becoming a leader in the disposal of this ash.
    Senator Boxer. That is music to our ears, and we are so 
appreciative. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Madam Chairman.
    The witness in the next panel, the Southern Alliance for 
Clean Energy, has in their written statement asserted that you 
had prior knowledge of needed repairs to the ash containment 
pond at the facility, yet did nothing about that. Now, it is my 
understanding that you do this investigation once a year, but 
the State does it on a quarterly basis.
    Mr. Kilgore. That is correct.
    Senator Inhofe. So the question I would ask you is, either 
in the State's quarterly reports or in the last, I don't know 
when the last annual inspection was by you, what those results 
were?
    Mr. Kilgore. Those results were not abnormal. In either 
case, I have looked at both the State reports and our reports. 
We have looked further back at engineering studies. We had 
outside engineering studies done on these repairs that were 
referenced earlier in 2003. So we did not rely on just internal 
expertise in that, we went outside and hired experts to give us 
advice on how to repair those leaks at the time.
    Senator Inhofe. OK. A lot of environmental organizations, 
perhaps including the Southern Alliance, who will be on the 
next panel, have called for coal combustion waste to be listed 
as hazardous waste under the Resource Conservation and Recovery 
Act, RCRA. What would be your feeling about the results of 
that, and is that good advice or how do you see that?
    Mr. Kilgore. Well, I am sure with these events that this 
will get a lot of attention. We look forward, frankly, to 
following the lead of Congress and the EPA at doing whatever is 
necessary to make sure something like this does not happen 
again.
    Senator Inhofe. In opening remarks, several members said, 
and I think I did, too, that when something like this happens, 
all the focus is here, we are having a hearing today, the media 
is here, the victims are here, that once all that goes away, 
that you kind of forget about, there is a propensity to just 
forget about that and get onto other things. How are you going 
to assure us that that won't happen in your case?
    Mr. Kilgore. Well, for one thing, we are a member of the 
community. We have 300 employees, we have some that live in the 
immediate area. And we have been there since 1955, actually 
before then when we started construction. It is only in our 
best interest, as it is in the county's and everybody else, to 
do this right and stay until the job is done, until the county 
says to TVA, OK, you have cleaned this up as we have requested.
    Senator Inhofe. That stands to reason. It is just that I 
want to be sure to get that in the record here, so that we will 
be facing that perhaps in the future.
    There is one thing, and I would ask you, Madam Chairman, if 
it is all right to do this, since I won't be here to ask 
questions of the next panel, I would like to ask one of the 
witnesses to perhaps include this in his statement, and that is 
the witness for the, I guess Mr. Smith, the Southern Alliance 
for Clean Energy, I understand they are considering a lawsuit. 
What I would like to have, to get a commitment, if we can get a 
commitment from them that if they have an award from a lawsuit 
or if they have a settlement that the proceeds would go toward 
mediating and addressing this problem, and not for some other 
cause. In other words, to the victims of the spill, habitat 
restoration and those things that would be directly related to 
this. I would like to ask them if they would address this in 
their opening remarks. I see a nod back there.
    Senator Boxer. I will give the witness an extra minute or 
two to respond to that.
    Senator Inhofe. That is fine. Thank you, Madam Chairman.
    Senator Boxer. Thank you very much.
    Senator Udall.
    Senator Udall. Now, my understanding, when we talk about 
whether we list it under RCRA, is that we are dealing with 
hazardous substances here. In 1 year, would this be correct, in 
the Toxic Release Inventory, TVA showed in 1 year at this plant 
that the dredge shelves contained 45,000 pounds of arsenic, 
49,000 pounds of lead, 1.4 million pounds of barium, 91,000 
pounds of chromium and 140,000 pounds of manganese? And these 
are metals that can cause cancer, liver damage, neurological 
complications, among other health problems. They have been 
accumulating for decades in these ponds and pools and sites, is 
that correct?
    Mr. Kilgore. That is correct.
    Senator Udall. And has your position been that these should 
be included as toxic hazardous substances? Have you taken a 
position on this in the past?
    Mr. Kilgore. No, Senator. We have tried to keep these 
contained, as we are supposed to, and follow our permits. We 
thought this containment was a viable containment. We had no 
reason to believe that it wouldn't hold this.
    These metals and arsenic that you refer to are concentrated 
in the burning of coal. They are out there in a lot of 
substances. They are elements and we concentrate them as we 
burn, and they are in this fly ash.
    Senator Udall. So what eventually is going to happen with 
these substances? What is your plan you have right now to deal 
with these thousands and thousands of pounds of toxic 
substances and hazardous substances? Your plan is just to keep 
accumulating them and then just to hope that it goes away? I 
don't understand where you are headed here. If we are trying to 
look at a sustainable operation, where are you headed with 
this? Are you going to accumulate it and accumulate it and then 
what happens to it?
    Mr. Kilgore. Much of this fly ash is actually sold, and I 
don't want, what happens there, when we burn the coal, it 
consolidates these materials. But when you use it in concrete 
or in soil, stabilizers and things like that, you actually 
spread this back out to where it is about natural background 
again. So we sell about 50 percent of our fly ash for use in 
things like concrete, road stabilization and things like that. 
That is a beneficial use, it spreads all of those elements back 
out, similar to what they are in the natural soils.
    For these wet cells, we eventually would dry them out, cap 
them and plant grass and have just a containment.
    Senator Udall. And your regulator now is the EPA, or is it 
the State?
    Mr. Kilgore. It is the State, as delegated by EPA.
    Senator Udall. Does the State have specific regulations 
dealing with each one of these substances?
    Mr. Kilgore. They have regulations dealing with our 
containments, yes.
    Senator Udall. For arsenic, for manganese, for cadmium, all 
of it?
    Mr. Kilgore. Water quality, yes.
    Senator Udall. And isn't it true that around these sites 
that we are seeing the pollution of wells?
    Mr. Kilgore. I haven't seen that. All the wells that I have 
heard tested so far have all come back good.
    Senator Udall. Well, the EPA, in statements to the press, 
has said that frequently we are seeing more pollution, maybe 
not in these particular sites, but in these kinds of sites 
where you accumulate this much in terms of materials that 
eventually it does get into the groundwater. But you are 
monitoring all of these sites and you believe there is no 
evidence of pollution of groundwater at this point?
    Mr. Kilgore. For this site, I have no evidence that the 
wells are being contaminated. That is one of the concerns, is 
whether this material leaches out the bottom.
    Senator Udall. Thank you very much.
    Thanks, Madam Chair.
    Senator Boxer. I am going to put in the record a couple of 
charts, Senator, to back up what you said. Not at TVA sites, 
but we will have these printed up for you.
    [The referenced material follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Boxer. But coal ash contaminates groundwater across 
the Country. And we have listed here, from Indiana, Michigan, 
North Dakota, New York, Wisconsin, Massachusetts, South 
Carolina, Virginia, where you are right, this is where it is 
at. So this is an issue that we need to look at. Because again, 
I would quote from Thomas Friedman, sometimes we have a real 
problem that is masquerading as an insoluble problem. This 
isn't insoluble. We can fix this if we have better controls 
over it.
    But I think your points have really illustrated you are not 
making it up, this is where it is happening.
    Senator Udall. Thank you, Madam Chair.
    Senator Boxer. Thank you very much.
    Senator Isakson.
    Senator Isakson. Thank you, Madam Chair.
    On that question about groundwater, who issues the 
standards for the construction of these ponds? Is it the 
Tennessee EPA or the----
    Mr. Kilgore. Tennessee Department----
    Senator Isakson. But Federal regulations?
    Mr. Kilgore. Yes.
    Senator Isakson. They do the inspections. Do you have 
leachate collectors under these ponds, or are they more of a 
dammed lake?
    Mr. Kilgore. They are the normal ash sediment, they are not 
lined, if that is what you are asking.
    Senator Isakson. That is what I was asking. I understand 14 
years ago, there was a similar spill, although smaller, in 
Pennsylvania. Is there, were there investigations of 
environmental damage there, and if there were, was there any 
finding of extensive damage or life-threatening damage from 
that spill?
    Mr. Kilgore. I have read that briefly and I have had staff 
in touch with those folks. It is my understanding that that was 
successfully cleaned up. It took some period of time, but that 
it was successfully cleaned up.
    The failure mechanism was not the same as what we saw here. 
It was a failure of a stop-log, I think, that held the dike at 
one point.
    Senator Isakson. The Chairman was talking about over-
seeding and strawing the immediate area temporarily. But I 
think I heard you say that you are going to remove, you are 
going to have all the heavy equipment, the yellow equipment 
which I guess means Caterpillar, you are going to eventually 
take all this out, right?
    Mr. Kilgore. Our first objective is to get the river. That 
will be dredge the river and get that out. Then we will move 
successfully back onto our site. Our first objective is to get 
it all back on our property. Out of that 275 acres, about 50 
acres of it is private property. We need to get it back on our 
property and then we can successively work it back. And either 
take it offsite, store it on, there are some fabrics that are 
made that actually filter this, so that it dewaters naturally 
and turns into a more solid material. There are other ways to 
dewater this. But we are looking at all those options.
    Senator Isakson. When you sell the fly ash to primarily to 
concrete producers, I understand, in what form do you sell it, 
wet or dry?
    Mr. Kilgore. It is usually, I would call it damp. It is not 
wet like this. It is dry fly ash, we keep it slightly damp so 
that it doesn't dust. Though we call it dry.
    Senator Isakson. Is that delivered by rail?
    Mr. Kilgore. Usually by truck. Could be by rail, but 
usually sold by truck.
    Senator Isakson. Is there any other use for fly ash, or 
market for fly ash beyond concrete?
    Mr. Kilgore. Yes, it is a good soil filler. It is used in 
various things. The cenospheres that we are collecting off the 
river, and I think we have collected several tons of those, are 
actually used in the manufacture of such things as bowling 
balls and things like that. They are a filler material.
    Senator Isakson. The elements that were on the chart, 
beryllium, chromium, arsenic, those are all naturally occurring 
elements that become hazardous in larger concentrations than 
naturally occurring, is that correct?
    Mr. Kilgore. That is correct. We obviously don't invent 
these elements, they are elements in nature. We do concentrate 
them as we burn the coal.
    Senator Isakson. And if I heard you right, by selling it 
and using it in concrete, it deconcentrates the elements back 
to a level of naturally occurring, is that correct?
    Mr. Kilgore. You spread it back out. When you sell it, it 
goes back to normal background levels as you spread it out.
    Senator Isakson. OK, my last question. You have five dry 
facilities and six wet, is that correct?
    Mr. Kilgore. Yes, that is correct.
    Senator Isakson. In your experience, what made the 
difference in one site you did it wet and one site you did it 
dry?
    Mr. Kilgore. I don't know the TVA history there. My 
experience is that the wet facilities were the older 
facilities, because as you collected this from the 
electrostatic precipitators that were put on in the 1960s and 
1970s, the way you got the ash away from the plant was to 
basically sluice it out to a pond. That kept it wet, kept the 
dusting down, which is what we were all worried about. And so 
the older facilities are generally wet, and probably the newer 
ones are dry.
    Senator Isakson. But either one can be approved by EPA, is 
that correct?
    Mr. Kilgore. That is correct.
    Senator Isakson. Currently?
    Mr. Kilgore. Yes.
    Senator Isakson. And last, I would just reiterate what I 
said in my remarks----
    Senator Boxer. Senator, did you mean EPA Federal or State?
    Senator Isakson. Well, the States enforce Federal 
standards.
    Senator Boxer. We don't have any standards.
    Senator Isakson. We don't have any? OK.
    Senator Boxer. We do not. That is why I wanted to--please 
go on. I will give you another minute. I just wanted to make 
sure you knew.
    Senator Isakson. And I appreciate that.
    Senator Boxer. We have no Federal standard for the disposal 
of this.
    Senator Isakson. Last, I want to repeat what I said 
earlier. You served us in Georgia and I appreciate the service 
you gave us in the utility industry. Since we have 10 
facilities in our State, I am very interested in seeing to it 
that we learn from this experience so that the standards in 
place prevent this from happening again. I appreciate your 
stewardship and your being here today. Thank you.
    Senator Boxer. Senator, thank you.
    Senator Merkley.
    Senator Merkley. Thank you, Madam Chair.
    Mr. Kilgore, I wanted to ask you a couple things related to 
this. One is that a TVA spokesman had said that the piles of 
ash in the pond were 60 feet above the water. Is that an 
unusual practice, or does it exceed any expected standard, or 
does it add to the loading that would create greater pressure 
against the dike? Is that a factor in any way in this disaster?
    Mr. Kilgore. It could be. I will say this is the only 
facility we have that is like that, where it has a ring dike 
above ground. Most of the rest of them are below ground ponds, 
so to speak. The ash dike was about 60 feet above the road, and 
it had about probably a foot of water on top of it, in terms of 
the ash, and then water on top to keep the dust down.
    Senator Merkley. My understanding of this statement was 
that the ash was 60 feet above the water.
    Mr. Kilgore. That would be above the river level, yes.
    Senator Merkley. I see. Thank you.
    Second, in terms of the contamination of groundwater, I 
believe I understood you to say that that has not been an issue 
in the TVA sites in general?
    Mr. Kilgore. It has not.
    Senator Merkley. OK. I just want to draw your attention to 
an EPA report from 2007, which identified 63 sites in 26 States 
where water was contaminated by heavy metals from dumps, 
including 3 Tennessee Valley Authority dumps. I don't have the 
details of that report in front of me, but I think it would be 
worth checking that.
    Mr. Kilgore. I will go back and look at that. Thank you.
    Senator Merkley. Third is, you noted in your testimony that 
you wouldn't go back to the same model. I imagine there are a 
range of options under consideration, whether or not to go to 
dry storage, whether to increase the strength of the dikes, et 
cetera. Could you just kind of outline for us the five or six 
strategies that might be the ones you are looking at?
    Mr. Kilgore. Yes, I will do that.
    First of all, we build one weir downstream to keep the ash 
from migrating downstream. There is actually a narrow spot in 
the river just below where all this spill occurred. It is about 
615 feet wide. We built a weir, which means we built gravel 
riprap out about a third of the way in the river, then left a 
notch for the river to flow on by so it doesn't back up and 
flood the residents. That should collect most of the ash that 
comes downstream, if it moves.
    Second, we have gone upstream on our property at the edge 
of it and asked for permission to build a second weir up there 
to contain about 50 percent more behind that, so it can't get 
out to the river. So there is about three options here. One, we 
can dredge the river, put it behind that second weir and then 
proceed to dry it. Two, we could use this fabric we talk about, 
dredge the river and put it in this fabric and stack those 
fabrics. They come in long tubes, about 20 yards long, I am 
told. I don't have the specifics on that. You can actually 
stack them, and we could put them in another place onsite. That 
is a good, stout containment. We have tried that. It seems to 
work well in terms of letting the water out and keeping all the 
solids in. That is a second option.
    A third option would be to use, when we dredge this, is 
actually to put it on a barge and barge it to another site that 
is permitted and properly dispose of that ash at another site. 
And of course, we have rail onsite, in addition to using a 
barge we could try to use the rail. I think the barge and the 
fabric drying and the normal dewatering of putting it back in a 
drier place and then letting it dry is the three options that 
seem to be most promising right now.
    Senator Merkley. Thank you. Thank you, Madam Chair.
    Senator Boxer. Thank you, Senator.
    Senator Alexander.
    Senator Alexander. Thank you, Madam Chairman.
    Mr. Kilgore, thank you for being here.
    In an earlier meeting we had with the TVA congressional 
caucus, I asked you these questions, but I would like to do it 
again in public. In my meeting with the residents who are here, 
they wanted to make sure, one, that TVA would have a long-term 
interest in cleaning up this problem. Two, that TVA might 
consider giving them options to move from the land that is 
affected and to move back if after they see what you have done 
they like what you have done. And three, that there be some 
sort of independent verification of what you have done from a 
health and environmental standard.
    Are those three areas that you are willing to make happen?
    Mr. Kilgore. Yes, sir. And if I could elaborate, we do want 
to, we need to purchase property that has been damaged. If 
people do want to reserve the option to come back, we are very 
willing to do that. If people don't think they want to come 
back, we would like to purchase that property and so that we 
can move on with the cleanup. We are very willing to do that 
and give them the option.
    And we are also not only willing but interested in 
independent verification. We need the EPA and the Tennessee 
Department of Environment and Conservation. They are the ones 
that have credibility right now, more than we do. We need them 
to stay there with the water samples and the sampling that 
needs to be done in the environment.
    Senator Alexander. In the spirit of turning this from an 
environmental disaster into a long-term technology opportunity, 
I want to ask you, unless it is proprietary information, 
relatively what the cost is of producing electricity in the 
Tennessee Valley, and any way you want to define it. Kilowatt 
hour, what does it cost to produce coal?
    Mr. Kilgore. A kilowatt hour of coal, if you just talk 
about the electricity out of the coal, not the transmission and 
other things, it will be about four and a half to five cents.
    Senator Alexander. Does that include the cost of building 
the coal plant?
    Mr. Kilgore. Yes.
    Senator Alexander. Is that what you call an all-in cost?
    Mr. Kilgore. That is an all-in cost. That is for older 
equipment. So if we built new plants, obviously that would be 
higher.
    Senator Alexander. And for nuclear?
    Mr. Kilgore. And for nuclear, the nuclear plant we are 
building right now is about 4.2 cents, as I recall, Senator.
    Senator Alexander. And for natural gas?
    Mr. Kilgore. Natural gas would be, the fuel alone for 
natural gas would cost about six cents. So about eight cents to 
ten cents.
    Senator Alexander. And hydro?
    Mr. Kilgore. Hydro is a few dollars, in terms of the, that 
would be less than a cent.
    Senator Alexander. And solar you don't have?
    Mr. Kilgore. Solar, we have very little of. We buy that 
from other folks.
    Senator Alexander. And wind?
    Mr. Kilgore. Wind is about 70 cents.
    Senator Alexander. Seventy cents.
    Now, looking ahead, and I say this to Madam Chairman, I am 
very excited about President-elect Obama's emphasis on electric 
cars and trucks. And one reason I am is because, according to 
Brookings and others who have looked at it, we don't have to 
build any power plants to use them. If we plug them in at 
night, into our existing power plants, and you have testified 
this yourself, you are working with Nissan in Tennessee as an 
example of your looking ahead, the plants that you have, 
whether they are coal or hydro or nuclear, at night will have 
cheaper power that will be available to electric cars and 
trucks. The estimates are that we might be able to electrify as 
much as half our fleet over the next 20 years, and thereby 
reduce our dependence on foreign oil.
    Now, in order to do that, since nationally, 50 percent of 
our electricity is made by coal, we are going to have to clean 
up the coal. And those who argue for the electric cars point 
out that even if we don't clean it up, that the carbon 
footprint of an electric car is less than an internal 
combustion car. But I feel like what we need to do is help you 
and other utilities take the coal plants that are going to 
continue to exist in this Country and clean them up. Go ahead 
and put scrubbers on all of them, make the mercury limit 90 
percent. Deal with this coal ash problem that we are talking 
about today and have some sort of mini-Manhattan project to 
find some way to recapture the carbon that comes from there, 
which commercially isn't available today.
    Would you have any advice for us? Is there any one or two 
things that we could do to make it easier for you to operate 
clean coal plants in the next 10 to 20 years?
    Mr. Kilgore. Well, that is a heavy question in terms of 
everything else I have been thinking about, Senator, is focused 
on this recovery.
    Senator Alexander. But the recovery brings to question the 
true cost of using coal to make electricity.
    Mr. Kilgore. There are several technologies that the 
Electric Power Research Institute is looking at in terms of 
being able to use coal in the future, everything from coal 
gasification first, which cleans up the stream before it is 
used, to, well, several other technologies. One doesn't come to 
mind now, but there are about three technologies that are used 
there.
    And we do need to find a way, there is coal to liquids, 
coal to gas, then there is cleaning up, scrubbing the existing 
facilities that could all be used as we go forward.
    Senator Alexander. Thank you, Madam Chairman.
    Senator Boxer. I want to pick up on this attitude of the 
TVA, because you are a very nice man and you have been very 
agreeable. And I so associate myself with the remarks of 
Senator Alexander.
    But isn't it true that you fought very hard against the 
EPA? They said you have 50 violations of the New Source Review. 
And weren't you even involved in the case in saying you didn't 
want to be told that you had to clean up the air, that you 
needed these new scrubbers? Didn't you fight against that 
legally?
    Mr. Kilgore. I don't know, Madam Chairwoman.
    Senator Boxer. You don't know?
    Mr. Kilgore. I have been there a short period of time.
    Senator Boxer. OK. Well, my staff says that----
    Mr. Kilgore. Could I reply to you in writing, please?
    Senator Boxer. Please. But I think what you will find is 
that your legal department entered that case--am I correct on 
that?--and fought against your having to clean up your act. 
Now, I just think, I like your answer to Senator Alexander, but 
I hope you will go back and show me this.
    Mr. Kilgore. I will.
    Senator Boxer. Because in the past, very recent past, in 
this New Source Review, finally has gotten resolved. And as I 
understand it, the State of North Carolina has sued TVA for 
polluting. So you have got problems. And you are a nice man. 
And I have a sense that maybe you didn't know all of this.
    Mr. Kilgore. I will give you----
    Senator Boxer. But you have got big problems. And I get 
back to what Senator Carper said, we want to work with you. But 
you have got to clean up your act there, literally.
    Now, Mr. Kilgore, the Kingston plant has released, and I 
think we have a chart on this, 518,000 pounds of arsenic. Here 
it shows 278,000, so we will go with this, 278,000 pounds of 
arsenic, 259,000 pounds of lead, 118,500 pounds of mercury and 
40,800 pounds of selenium, for a total of 580,213 pounds of 
heavy toxic metals released.
    Now, selenium causes wildlife deformities. I know that from 
my State. We had a horror show going on with too much selenium 
in our environment. And ash waste is now spread throughout the 
valley. Can you hold that up again, the one that shows sort of 
like a mud slide? That graphically shows what is going on. And 
Senator Carper, if you turn around, you could see this. The 
mud, which is this right here, spread there. And this isn't 
harmless, this has all this in it.
    Now, you said, in answer to one of the questions, you are 
going to clean this up, you are going to get this stuff and you 
are going to put it back on your property, then you are going 
to figure out, sell it, you are going to do this. What about 
the coves? What I understand from the homeowners, and I don't 
know if we have the picture of the coves, we have a small 
picture, that they showed me, why they bought their property, 
these little coves all around. They say you have no plans that 
they know of to restore the water there. They say you are just 
going to cover it up and plant it up so people who had water 
outside their house now have this gunk there that has seeds put 
in it, grass growing up.
    Is that what your plan is? Is that what you consider a 
cleanup for those homeowners?
    Mr. Kilgore. There are two coves and--well, I will just 
answer you bluntly, no, that is not a cleanup. There are two 
coves, one of them had deeper water than the other one. The 
other is more to the northwest, if you will. And I was asked 
specifically at a town meeting, are you going to make that back 
into an enbayment, in other words, have water back there. And I 
said, until we can study that and make sure we are working with 
the State to permit that correctly, I can't answer that 
directly at this time. It could be that a creek through that 
area would stir up less and we could cap that and shake that.
    We want to recover all that we can recover. The likelihood 
is that we will take this and store is some way and dewater it. 
I didn't want to make a promise on that particular one until I 
know what the best options are for the environment and for the 
neighbors.
    Senator Boxer. But at this time, you have no plans on the 
books to restore those coves the way they were before is my 
point.
    Mr. Kilgore. But I also don't have plans not to, Madam 
Chairman.
    Senator Boxer. Well, that's not an answer.
    Mr. Kilgore. OK.
    Senator Boxer. You need to have a plan to clean this up. 
And if you don't have a plan now, that is my point, that is not 
cleanup, just leaving the stuff there, in my opinion. It is not 
cleanup. Because people will never feel safe there. They know 
what is in this. They are very smart. And they know what is in 
it, and it is sitting out there, and they are going to send 
their grandkids out or their kids out to play? I don't think 
so. I don't think you'd send your grandkid out to play in an 
area like that.
    Now, I want to make the point that you said that you looked 
at the studies prior to the failure and they all looked good. 
Well, one engineer who reviewed TVA's February 2008 annual ash 
pond dike stability inspection report questioned your 
evaluation. His name is Bruce Tschantz, a dam safety consultant 
who was the first U.S. Chief of Federal Dam Safety for the 
Federal Emergency Management Agency. He said he was perplexed 
that you felt it was safe. He said it contained information 
about seeps, erosion and other issues, but no information to 
back up the claim that the dike was indeed stable.
    So I think there is just a lot of questions surrounding 
your decisionmaking prior to the failure. And I have to say 
from everything I read, I believe the decision was made to go 
with the cheapest fix. That is a very bad thing. It is a bad 
thing to do. It is just like if you have a problem with the 
roof in your house and you take the cheapest solution, which is 
put a little patch over there, but you ignore the fact that 
there were some cracks that seemed to be in the roof that were 
spreading, and then one day you have a massive flood.
    This isn't your house, I don't mean you personally, sir, 
you are a nice man. But this isn't TVA's house. This isn't. 
Just like this isn't our Government, the Senators here. We 
govern for the people. You have people who trust in you, in 
your management. Again, I say you, I mean your organization. 
They live, they are neighbors, I know that the entire area, 
because we spent a lot of time talking about it, TVA is this 
area. TVA is the community.
    So you can't treat people and their investments, their 
homes and their families as if they are just neighbors to you 
by proximity. It goes back to Senator Carper's quote, when you 
are a neighbor, you have to be concerned about this.
    Now, you were told you had a problem, you chose the 
cheapest fix. That turned out to be wrong. You didn't pick the 
right fix, and now you have the most expensive problem on your 
hands and this horrific thing, a billion gallons of toxic 
waste. There is a lot of blame to go around, sir. I myself 
share it because of my lack of focus on this. But when the EPA 
confirmation comes about, I want to just say to my colleagues, 
I intend to ask Lisa Jackson what she intends to do. Because 
the EPA doesn't even need any legislation from us, colleagues. 
They have the ability to regulate this. And I see it coming, 
and I hope it is coming.
    And the technology is already there, Senator Alexander, 
they really are, we can do, for safer disposal. The dry ash is 
way safer than the wet. All you have to do is look and see, way 
safer than the wet.
    So that right away is available. But we could go to the 
lined alternative, line these fills and so on and so forth.
    So I have other questions I will submit for the record, 
because we want to get to our next panel. I won't ask you any 
more questions, I am sure you will be delighted to know that. 
But I am going to call on other colleagues to take their round 
now.
    Senator Carper.
    Senator Carper. Thank you, Madam Chair.
    I see out in the audience we recognized your neighbors, our 
neighbors from Roane County. And looking at the folks who are 
sitting in the front row, I look all the way down to my right, 
to your left, and there is, Senator Alexander, I see there is a 
member of the audience who looks familiar to me, and perhaps to 
you. I think maybe at one time she was Secretary of the Senate? 
Is that Emily Reynolds that I see sitting out there?
    And Jeff Merkley, our new Senator from Oregon, and Tom 
Udall, our new Senator from New Mexico, were participants in 
the orientation for new Senators and spouses last month. And 
that is an initiative that Senator Alexander and Senator 
Voinovich and I and others worked on with great support from 
Emily Reynolds. I just wanted you to know that that experiment 
that we kicked off 4 or 5 years ago is alive and well and I 
think bearing good fruit, bringing along a new generation of 
Senators. I think they will be well served, and our Country and 
their States will be well served because of it, so welcome.
    I would just observe, Mr. Kilgore, I have served with 
Barbara Boxer, we were elected to the House together in 1982. I 
have been in a number of committee hearings with her then, and 
I have never heard her say to one witness three times that you 
are a nice person.
    [Laughter.]
    Senator Carper. I know you are carrying some heavy burdens 
in your responsibility, but you can feel better about that. 
That is pretty unusual.
    But when I was a younger man, I used to study a little bit 
of economics, not nearly enough. But I studied some economics, 
and I always say, in my work here I look for market solutions 
to help us incentivize good public policy. And I want to ask 
one question that relates to the fly ash and then look to some 
broader environmental issues I want to talk to you about.
    When you think of best practices, let's just think about 
best practices in the industry for dealing with fly ash. We 
create a lot of coal, I was born in West Virginia, my dad was a 
coal miner for a short time in his life. So we have sort of a 
family history with coal. And I know we are going to be using 
coal for a long time. But we have to find ways to, as you know, 
reduce the emissions from the coal.
    But just talk to us a little bit about best practices 
within the industry for dealing with fly ash that comes from 
using coal. What are some things that you are doing that you 
think are cutting edge, and what are some things that others 
are doing, other utilities are doing, that are cutting edge 
that we could all learn from?
    Mr. Kilgore. Well, I think the two obvious ones are to use 
the dry ash method of collecting it. That way it is more 
marketable, if it is. And it also keeps the water out. So those 
are the two things. If you can market the fly ash, obviously 
that puts it back in a more natural state, out in a 
cementacious mixture of some sort, either a road bed, or 
lightweight concrete or something like that. So the best thing 
you can do with this fly ash is find ways to re-use it, much as 
we are trying to do with a lot of other things in our 
environment, that is to recycle as opposed to just holding onto 
it. That is, I think, where we need to concentrate.
    Senator Carper. Is there anything that the State or Federal 
Government should be doing to incentivize that best practice, 
or is nothing needed?
    Mr. Kilgore. Not that I can readily think of. I am sure I 
can if I take a little time, but at the moment, I don't think 
of anything.
    Senator Carper. Fair enough. Let me just pivot if I could 
and move toward, I guess what I will call a cleaner TVA, some 
questions related to a cleaner TVA. There are a couple of areas 
I would like to explore with you. One of those is, can you 
share with us some of the investments that you are making at 
TVA with respect to reducing mercury emissions and to carbon 
capture technologies?
    Mr. Kilgore. On the mercury emissions, we have seven 
scrubbers in operation. We are installing a fourth and fifth 
one now on this Kingston plant, I mean, eighth and ninth, and 
then we also have one at Bull Run. So we will have nine, ten 
scrubbers in operation in the next couple of years. That is the 
most of our co-generation, that captures, as you know, the 
mercury is a co-benefit of that scrubbing. You capture the 
mercury out of that.
    Senator Carper. Roughly how much do you think you are 
capturing or reducing mercury emissions through that approach?
    Mr. Kilgore. I am sorry?
    Senator Carper. Roughly what percentage of your mercury 
emissions do you think you are capturing with that approach, as 
a co-benefit?
    Mr. Kilgore. The co-benefits, I think, and I will need to 
go back and check on this, I think are about 90 percent. And it 
gets the mercury below detectable limits as it goes out. 
Obviously there might still be some there, but it is below 
those detectable limits.
    Senator Carper. That is pretty encouraging.
    Talk to us about what you are doing with respect to carbon 
capture.
    Mr. Kilgore. Carbon capture, we are----
    Senator Carper. Or other issues. Other initiatives relating 
to not just sequestration, but other things that you are doing, 
or thinking about doing with carbon.
    Mr. Kilgore. Yes, let me take that question, because that 
is the one that I can answer best. The carbon capture is 
obviously going to be a very expensive proposition, and then 
you have, what are you going to do with the carbon after you 
have captured it. Sequestration could be problematic, who owns 
the space under the ground, how do you do that?
    So we are following the Electric Power Research Institute, 
participating in that, on that score. Meanwhile, we still need 
to minimize our carbon. So our strategy there is two-fold. We 
have a very good strategic plan that our new board guided us 
through. It is anchored on two things, one, increase our 
nuclear generation, because it is carbon-free, and it is also 
sulfur-free and nitrogen-free. So it captures all three of 
those and it doesn't have those. And then also, just the 
efficiency. We think there is a lot of room to be gained in our 
energy efficiency and conservation program. Senator Alexander 
mentioned the cars. To be able to fuel cars at night on 
electricity and then run them during the day utilizes the 
system better, it spreads the fixed costs of our system better. 
But even other things, just like how we heat and cool our 
houses and all that. So we are engaged in a program, we have 
about $100 million budgeted this year, and that increases every 
year for the next 5 years to just look at our energy 
efficiency.
    Senator Carper. Give us some examples of how that $100 
million is going to be spent. We had yesterday a guy sitting in 
your seat, John Doerr, from California talk to us about how 
they have incentivized utilities in California to be able to 
make money but to make money by selling actually less 
electricity. How are you going to use some of that $100 
million?
    Mr. Kilgore. Let me give you the most practical example. We 
worked with Oak Ridge National Labs to build five Habitat for 
Humanity houses that are all about 1,200 square feet. And the 
last one of those houses we built is an all-electric house, 
1,200 square feet, and the electricity cost for that house is 
less than $1 a day. It is that way because all of the 
facilities, the heating and cooling, are all engineered, you 
don't put the heat ducts or the cooling ducts in the attic 
where it is the hottest or the coldest, so you lose all the 
heat. You put them down in heated space. We have a micro-
computer that tells the air conditioner when it is running, put 
the heat from the air conditioner back in the hot water. Don't 
put it out to the air where as you or I might go out beside our 
air conditioner and hold our hand over it, you feel all that 
hot air. Put that heat back in the hot water. That basically 
gives you hot water free all summer.
    And so yes, we sell less electricity that way. But on the 
balance of that, that is really good because it evens out our 
system and doesn't expose us to these high peaks. What costs us 
a lot of money to serve our customers are having to bill for 
high peaks and then having no sales at off-peak times. If we 
can levelize that, then we can give the economic benefit to our 
customers. So that is why conservation and energy efficiency is 
good for all of us.
    Senator Carper. Thank you very much.
    Senator Boxer. Senator Carper, thank you. I don't want to 
get off of this spill today, but this is important, because 
these are the kinds of other issues we are going to get into.
    I would like to move on, if it is OK with colleagues, to 
our next panel. And again, in parting, I would say, Mr. 
Kilgore, remember your mission. Being a national leader in 
technological innovation, low-cost power and environmental 
stewardship. It doesn't say one or the other. All of these 
things. And I would just say, from what I know about you, TVA, 
you are lagging in some of these areas.
    So we are going to need to work very closely with you. And 
I am glad that you reached your hand out. But all of us feel 
these people have to be made whole, they need a remedy that is 
a real remedy, not some cover up the problem remedy. And we 
need to see you, speaking for myself, not fighting cleaner 
technologies, not utilizing a budget that you get from 
ratepayers to fight against ways to clean up their air. But to 
be on the right side of those issues. We hope to see this 
agency transformed into a leader. I think we do have the 
interests and the right frame of mind to make that happen. So 
we will see you again and hopefully in better circumstances 
than this one.
    And we would ask Stephen Smith, Executive Director, 
Southern Alliance for Clean Energy, to come up. William 
``Howie'' Rose, Director of Emergency Management, Roane County, 
Tennessee, to come up. Mr. Smith, are you going to open it up?
    Mr. Smith. I would be happy to, Madam Chairman.
    Senator Boxer. OK. We will give you 8 minutes, sir. If you 
need to go over that, we will give you a little extra. But we 
did run a long time, and there was good reason for that. So 
please proceed.

    STATEMENT OF STEPHEN A. SMITH, DVM, EXECUTIVE DIRECTOR, 
               SOUTHERN ALLIANCE FOR CLEAN ENERGY

    Mr. Smith. Madam Chair, Senator Alexander, members of the 
Committee, I want to thank you for holding these important 
hearings today. I also want to recognize the community members 
who have traveled up here with me today.
    The devastation unleashed on this small community on the 
night of December 22d is difficult to describe. Words and 
pictures do not do justice to the magnitude of this disaster. 
To see hundreds of acres of nasty, coal combustion sludge, many 
places 20 feet deep, destroying beautiful lakefront property is 
truly sad.
    I have witnessed a host of emotions from families in this 
community: fear, frustration, anger and depression. But most of 
all is betrayal. The Tennessee Valley Authority has unleashed 
devastation on the very watershed and communities that it was 
created to protect. Yet as devastating as this was, the fact 
that this occurred on a cold December night instead of warm 
July afternoon where people would have been enjoying the vast 
recreational opportunities of this once beautiful river has 
spared potentially hundreds of lives.
    News reports and my organization's preliminary investigate 
indicate that this could and should have been avoided. 
Shortcuts have been taken, rules have been waived or broken and 
accountability has been absent. This was not a natural 
disaster, this was a man-made disaster.
    It is clear that in its early response, TVA prioritized 
public relations over public health and has largely been 
overwhelmed by the size of the spill, which appears to be the 
largest industrial spill in our Nation's history. The force of 
this accident not only ripped homes off their foundation, it 
ripped the lid off a national problem and the failure of EPA to 
develop minimal standards for this waste. It is outrageous that 
landfills that hold our household garbage are more regulated 
than pits holding this toxic coal sludge.
    It also washed away millions of dollars of clean coal 
advertising, reminding us of the reality that burning coal is 
dirty business. From mountaintop removal mining, which destroys 
the southern Appalachian mountains, to air pollution which 
chokes our cities, our Nation's national parks and leads to 
climate destabilization. To this toxic coal sludge, into which 
is in the Tennessee River, burning coal is a dirty business. We 
can and we must do better. We have cleaner technologies.
    But this is not just a story of TVA's failure, but also 
EPA's. In 2000, EPA shirked its responsibilities by not 
regulating coal ash as a hazardous waste. And it promised to 
promulgate minimum standards. I am sad to report that over 8 
years later and 28 years since Congress first asked EPA to 
study this issue, we still do not have the most basic standards 
for this waste.
    This too is a national problem. Today, EPA cannot fully 
account for the hundreds of millions of tons of coal ash that 
are generated every year. And this problem is only going to get 
worse. As we tighten our air regulations, removing more 
pollutants from the hundreds of smokestacks, we will end up 
with this ash in greater volumes and greater concentrations.
    Today I call on your Committee at a minimum to require the 
orderly phase-out of all wet storage of this toxic ash. Require 
EPA to immediately inspect and monitor all toxic coal ash 
storage and disposal units. And third, to develop a long-
promised Federal regulation of all toxic coal ash storage and 
disposal by year's end.
    TVA was born out of crippling economic times. And as we 
find ourselves again in similar difficult times, it is an 
opportunity to remake TVA as a leader going into the 21st 
century.
    The great challenge of how we produce and consume energy in 
this Country cries out for leadership from the power industry. 
We need an agency like TVA to be a living laboratory to lead us 
into the future, heavily invested in advanced clean energy 
efficiency, smart grid technology and clean, safe, renewable 
energy. This is the fuel for an economic recovery. This 
Committee has the power to confirm up to four new TVA board 
members by May 2009. We must ensure that these new members have 
relevant experience, a strong commitment to clean energy and 
have a bold vision for this agency's future.
    Madam Chair and members of this Committee, the operative 
words here today are accountability and oversight. The citizens 
demand and deserve no less. And we must have cleanup, no cover-
up.
    That is the end of my prepared remarks. I did want to 
briefly respond to Senator Inhofe. We have under two Federal 
laws filed the intent to sue. We have notified TVA of this 
under the Clean Water Act and under the Resource Conservation 
and Recovery Act. We have not made a commitment yet to sue. We 
were so overwhelmed and disappointed about this, we felt that 
we wanted to sink a legal hook, potentially, into the agency to 
make sure they do the right thing.
    If they do the right thing, we may never sue. We are not 
intending to get rich on the suit. We are intending to hold 
them accountable. If you all supersede us in doing this, maybe 
there is no legal activity.
    Now, I cannot represent other lawyers' activities that are 
going to take place. And I cannot represent the litany of legal 
activities that are going on. But my organization is not 
looking to enrich ourselves. We just want this cleaned up.
    Thank you.
    [The prepared statement of Mr. Smith follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Boxer. Thank you very much.
    Mr. Rose.

  STATEMENT OF WILLIAM ``HOWIE'' ROSE, DIRECTOR OF EMERGENCY 
          MANAGEMENT SERVICES, ROANE COUNTY, TENNESSEE

    Mr. Rose. Yes, ma'am. First of all, I would like to thank 
you, Madam Chairman, for the----
    Senator Boxer. Is your mic on there, sir?
    Mr. Rose. It is now.
    Senator Boxer. That is great. OK.
    Mr. Rose. First of all, I would like to thank you, Madam 
Chairman, for allowing me the opportunity to come and to speak.
    I appreciate the opportunity from each of the Senators that 
are here for this chance to be able to discuss the emergency 
response phase of this disaster that took place on December 
22d. I would first like to say that all disasters are local in 
their inception to the end of recovery, all emergencies are 
local.
    The local government stands as the first line of defense 
and as oftentimes the last witness to the recovery of a 
disaster. I intend to speak today about what the county has 
done immediately following the event of December 22d and to 
raise the concerns that the county has today and will continue 
to have for the foreseeable future.
    At 40 minutes past midnight on December 22d, 2008, the 
Roane County Emergency Communications Center received the first 
911 call reporting a large mudslide that had collapsed houses 
and trapped occupants. Various emergency agencies, including 
the Roane County Office of Emergency Services, were dispatched 
to the location.
    Roane County sheriff's units, while enroute, encountered a 
large wall of earth obstructing Swan Pond Road adjacent to the 
north entrance of the Kingston Fossil Plant. The sheriff's 
office units then advised all responding units that there had 
appeared to have been a failure of the ash pond obstructing 
Swan Pond Road. The first arriving responders arrived in the 
100 block of Swan Pond Circle Road. There the road became 
impassable due to debris from the ash slide.
    Emergency responders arrived near the first affected 
residential structure at 1:06 a.m. An incident command post was 
established near 175 Swan Pond Circle Road. Initial rescue 
crews were sent to the Schean residence where one adult male 
was found extricating himself from a partially collapsed home. 
Mr. Schean was not injured and did not request EMS treatment.
    The initial scene assessment revealed Swan Pond Road, Swan 
Pond Circle Road, and the railway into the TVA Kingston Fossil 
Plant were impassable due to debris. Notification to Norfolk 
Southern's dispatch advising them of the situation was made at 
2:17 a.m. Emergency response crews began a door to door search 
of all residential structures in the area. Homes along the lake 
shore were evacuated due to fears of secondary slide and the 
potential of ruptured gas lines to create fires in the area.
    One additional home that had sustained damage was found to 
be occupied. One adult female, Mrs. James, was taken to a 
nearby neighbor's home. At 3:49, the Roane County Emergency 
Operations Center was activated as well as a shelter at the 
Roane State Community College was opened for evacuees. Roane 
County utilized its emergency notification system to contact 
all residents in the affected area to inform them of the event 
at 3:52. The Roane County Basic Emergency Operations Plan was 
activated to bring on line all emergency assets of Roane 
County.
    Myself and County Executive Mike Farmer established contact 
with TVA at the Kingston Fossil Plant at approximately 4:45 
a.m. TVA personnel advised us that they were in the process of 
assessing the ash pond and mobilizing the emergency resources 
at that time. A final search of the area was completed at 4:56 
a.m. and all emergency personnel were ordered out of the area 
to a staging area at Swan Pond Road and Swan Pond Circle.
    At 6:36 a.m. the Roane County Emergency Communication 
Center received a 911 call from the Norfolk Southern Railroad 
stating that their train heading to the Kingston Fossil Plant 
had derailed. Upon our arrival with TVA Police at Swan Pond 
Road and Swan Pond Circle, communications was established with 
a Norfolk Southern representative that advised us there were no 
injuries and the train had impacted the slide area resulting in 
an emergency stop from the train crew. The train had not indeed 
derailed and was stuck in the debris.
    Unified command was established between Roane County and 
TVA Fossil Plant at 7:42 a.m. Local utility crews were sent 
into the area to conduct damage assessment of critical 
infrastructure at 7:50. Harriman Utility Board reported 
ruptured gas, water, and sewer lines as well as numerous 
electrical lines down at 8:04. Roane County Office of Emergency 
Services terminated the emergency response phase at 9:30 and 
initiated recovery operations at that time, determining that 
all residents had been accounted for.
    The recovery operations began with the Roane County 
building official and damage assessment teams beginning their 
assessment of residential properties at 10 a.m. The building 
official reported three homes with significant structural 
damage that would require the residential structures need be 
condemned due to structural instability. These were the only 
three residential structures found to have significant damage.
    Further damage assessment revealed 42 pieces of personal 
property that had some sort of damage to docks or other 
ancillary structures. Utility crews reported that immediately 
following the event, there were approximately 60 homes with 
interrupted electrical power, 55 homes with interrupted gas 
service, and 37 homes with interrupted water service. TVA 
entered in various contracts with local service providers to 
rapidly restore these critical utility services immediately 
following the event. All utility repairs were completed on 
December 31st.
    The highway department of Roane County, after performing a 
damage assessment of Swan Pond Road and Swan Pond Circle Road 
identified that there was enough debris covering those roads 
that the highway department lacked sufficient equipment and 
personnel to accomplish debris removal operations alone. The 
TVA was requested to assist by providing heavy equipment and 
personnel to begin debris removal. Debris removal began on the 
23d and is still ongoing.
    Roane County's Office of Emergency Services continues 
recovery operations within a Unified Command System co-located 
with TVA, the State of Tennessee, and EPA organizations at the 
TVA Fossil Plant.
    Environmental concerns at Roane County recognized that this 
event presented several complex environmental issues for the 
residents of Roane County. We recognize the need for both long 
and short-term environmental monitoring to be performed. Roane 
County does not have an environmental monitoring capability at 
the level needed for this recovery operation. Therefore, Roane 
County has requested of the State of Tennessee that air, 
surface water, groundwater, and soil sampling be determine to 
help us determine the environmental effects from the ash spill 
that exist now or in the future.
    Many unanswered questions about the environmental impact of 
this event still exist. It will take many months before we are 
able to fully characterize this event as it pertains to the 
impact on the environment and health of the area. Therefore, 
Roane County has requested from the State of Tennessee that an 
interagency oversight group consisting of State and local 
organizations be created for monitoring the recovery efforts.
    On January 5th, 2009, an after-action review of events 
following the response to the dike failure at the TVA Kingston 
Fossil Plant was held with the local emergency response 
organizations. Several issues were identified that need 
addressed as corrective actions for future emergency 
preparedness activities.
    The first challenge that was identified was immediately 
following the event, it was difficult to form a cohesive 
unified command system with the TVA due to the fact TVA at that 
time was not using the Incident Command System as defined by 
the National Incident Management System. A corrective action 
would be for TVA, like all Federal, State and local agencies to 
adopt, train, exercise, and conduct emergency response 
operations utilizing the Incident Command System as defined by 
the National Incident Management System.
    The second challenge that was identified was to our 
knowledge there does not exist for the TVA Fossil Power 
Division the same stringent emergency preparedness and planning 
program as does for TVA's nuclear and hydroelectric facilities. 
The corrective action that was identified for TVA to implement 
a system-wide rigorous and comprehensive emergency preparedness 
program that incorporates all aspects of emergency management.
    The third challenge that was identified was, to our 
knowledge, a comprehensive hazard analysis and risk assessment 
had not been performed at the TVA Kingston Fossil Plant that 
would have identified the potential of the dike failure. The 
corrective action that emergency response organizations 
requested is that TVA should conduct and make available to the 
emergency response local community a comprehensive hazard 
analysis and risk assessment for all TVA-owned and operated 
facilities.
    In closing, I would like to say that the events of December 
22d have changed the face of Roane County. I count it a 
blessing that lives were not lost and that physical injuries 
were not sustained. On behalf of Roane County, I want to thank 
all the local, State and Federal organizations that have helped 
and will continue to help us deal with this event. I want to 
thank TVA for their response in repairing critical county 
infrastructure. I am pleased to say that as of today I feel 
that TVA has brought its entire cadre of resources to bear on 
this event.
    Many challenges, both environmental and economic, exist now 
and many more will arise in the coming days and months. In 
closing, I want to say as a lifelong resident of Roane County 
that I have faith in the people of Roane County and I know them 
to be relentless when faced with a challenge. I know that given 
the opportunity they will rise to the occasion and create many 
solutions to the challenges that lie ahead.
    Thank you.
    [The prepared statement of Mr. Rose follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Boxer. Thank you, Mr. Rose.
    Let me just say, because my question is going to be for Mr. 
Smith, that what I intend to do is ask TVA to respond in 
writing to your recommendation, that they answer the question 
as to why their emergency plans are very different. You said 
the nuclear plants have a much more stringent plan than this 
plant.
    Mr. Rose. Yes, ma'am.
    Senator Boxer. And given the magnitude of what has happened 
here, and as you point out, what could have happened here had 
this happened in the daylight, summer day. And all you have to 
do is look back at what happened in, it was West Virginia in 
the 1970s, how many lives were lost because of the timing of 
that event. I am going to share that information with you, sir.
    Mr. Smith, scientists tell us that global warming will 
cause more extreme weather events, including heavier rains. 
Given what you know about this disaster so far, could more 
extreme weather events increase the likelihood of other 
impoundment failures?
    Mr. Smith. I think that is certainly a possibility. Again, 
the fundamental problem is that EPA has not fully characterized 
the extent of this problem. So until we have a comprehensive 
review and understanding of the extent of the problem and fully 
characterize it, I think that is a very real possibility.
    Senator Boxer. Are you concerned about the potential for 
other impoundment wall failures at other coal-fired power 
plants?
    Mr. Smith. Well, we are concerned. I think this problem has 
not been fully addressed, and therefore we are eager to see the 
comprehensive review. The unfortunate silver lining in this is 
that it has seemed to stimulate interest in review. I have seen 
a number of utilities now that have said that they are going 
back and beginning to look at this.
    But again, we need a regulatory approach to this, so that 
we don't leave it up to the power industry to self-regulate 
themselves.
    Senator Boxer. And I think you were very clear in your 
testimony and I feel you have made an important point. We have 
wet storage and we have dry storage. Now, when we asked that 
question of Mr. Kilgore, he said, well, the wet storage is the 
older way to dispose, and the dry storage is the newer. But 
yet, there are still, as I understood it, some very live 
proposals for more wet storage out there.
    So I think your point that we should consider asking, and I 
will ask Lisa Jackson this when she comes before us, there 
ought to be a way to say that that wet storage, we have enough 
proof to know that it is very dangerous.
    So I guess I would ask you, for the record, to say to me 
now, I mean, I have seen what happened in the 1970s, I have 
read about it, I haven't actually gone and seen it. And I have 
certainly been briefed extensively on what happened in this 
case. Isn't that enough of a wake-up call for us to say that 
wet storage is simply not safe, unless there is a way to do it 
that you treat it as a hazardous waste?
    So I would ask you what your thoughts are. I am not 
expecting you to give me the definitive answer today. But we 
have some options here. We could treat the wet storage as 
hazardous waste and require the kind of fill that they have for 
hazardous waste. We could outlaw future wet storage methods of 
disposal and go to dry storage, phase out the wet storage.
    What is your sense, having seen this terrible result of wet 
storage?
    Mr. Smith. My sense of reviewing the information that is 
available in the EPA records, we have included in our testimony 
the March 2000, where EPA came right up to the edge of 
regulating this as a hazardous waste and then shirked away from 
that, for I think economic reasons and lobbying pressure.
    My sense is that we absolutely need to keep this ash out of 
the water. Keeping it wet is not the proper solution. Every 
instinct I have, I am a veterinarian by training, my science 
and biology and chemistry tells me, don't make this wet, as 
much as you can. If you slurry it out, get into a point where 
you dry it out. And I think storing it wet is unacceptable.
    And in my comments, I think we need to phase that out. I 
think that needs to be a very clear directive. That is an 
unacceptable solution.
    I don't know, in the full gamut, of what the regulatory 
options are. But I can very confidently tell you today that if 
we regulate it as a hazardous waste, that may be the direction 
to go. Some may argue that is too far. But I can promise you, 
the lack of regulation we have right now is unacceptable. And 
that is one of the reasons why this accident has happened.
    Senator Boxer. And it seems to me, one of your biggest 
concerns and the concerns of the residents, in addition to the 
immediate problem of getting rid of this stuff, so I would ask 
you two final questions. The answer I got from Mr. Kilgore I 
found totally unacceptable, that they are going to clean up the 
river, of course they have to do that, but they are not going 
to go to the coves, and they are just going to cover it over 
and plant seeds in it.
    Now, from your experience and your organization's study, 
because I know there were different studies done that showed 
more serious pollution problems, and in the surface water. I am 
not saying into the drinking water, I am saying surface water. 
So do you feel that the community should demand a restoration 
of these coves as opposed to agreeing to live there with some 
plants grown over this stuff, this hazardous stuff?
    Mr. Smith. Well, not to create a panic, but we issued a 
statement very early in this process that reminded people that 
there are multiple pathways by which people can be exposed to 
this. Largely TVA originally out of the blocks focused only on 
the drinking water pathway. And that is important. But there is 
the drinking water, there is the air, because as this dries 
out, the particulate matter, there is, when you can come into 
physical contact with it. And we strongly encourage people to 
avoid touching it right out of the blocks. TVA did not do that, 
they did about a week later. But out of the blocks, we need to 
be aware of that.
    And then, this will buildup in the environment through 
biological accumulation in the aquatic life and others. So 
there are multiple pathways.
    As my understanding of today, with all the information that 
I have seen is, this site has not been fully characterized. We 
do not know yet what is the proper way. I in my heart of hearts 
believe that it is going to be a much more aggressive action 
than what I am hearing from the Tennessee Valley Authority. And 
we need to get that.
    But we need to fully characterize that ash pile. That is 50 
years' worth of different types of coal that have been stacked 
at that site. TVA has taken some samples, I was just talking to 
Howie earlier, it looks like they finally have done a core 
sample. There are going to be different concentrations at 
different levels, because there has been different types of 
coal burned. And until we fully characterize that and 
understand what the hot spots are, we should err on the side of 
caution.
    Senator Boxer. I think that is very key. So one of your key 
demands, then, in speaking for the community, is to fully 
characterize what is in this muck.
    Mr. Smith. Exactly.
    Senator Boxer. And you know, I wanted to point out, we saw 
a picture of kids walking through it.
    Mr. Smith. And that is totally unacceptable.
    Senator Boxer. That is, Senator, really unfortunate, that 
TVA took a week before they said, stay out of it. I mean, yes. 
So let me thank you very much, both of you. I am going to turn 
the gavel over to Tom Carper and step out for just a moment. He 
will speak and then he will call on Senator Alexander and then 
he will close. I may come back, I think I will come back.
    But I want to thank both of you. I think, Mr. Rose, if I 
might say, I hear in your voice this take-charge point of view. 
You don't want other people to come in and help, but you are 
admitting to the fact that you didn't have the equipment. This 
was a huge situation for you.
    I so admire your work. I was a county supervisor when I got 
started in life, so everything happens right there on the 
ground.
    Mr. Smith, I think you have been articulate in representing 
the concerns of the people. And I think you have said it in 
ways that are very calm but very concerning. We cannot forget 
all of the stuff that is in this muck is stuff that is so 
dangerous that we pass laws to get it out of the air. And there 
it is, concentrated. Now, if it gets back into the air or gets 
into the drinking water or even remains on the ground, it is a 
concern. We need that analysis deep into this muck, because of 
the different types of coal and the different types of problems 
they each present.
    Thank you very much, and I will call on Senator Alexander, 
and Senator Carper, you have the gavel for now.
    Senator Carper [presiding]. I want to call on Senator 
Alexander as well. Senator Alexander.
    Senator Alexander. Thank you, Senator Carper. Mr. Rose, Mr. 
Smith, thank you both for coming.
    Mayor Farmer is here from Roane County, the other residents 
of Roane County have been introduced, he hasn't. We thank you 
for your leadership.
    Mr. Rose, first I want to, from all I can gather, you and 
the local officials did a really good job in emergency 
preparedness and reaction, given your resources. You moved 
quickly and you have been complimented by other people. I want 
to compliment you as well.
    Mr. Rose. Thank you.
    Senator Alexander. The situation we have is that this is a 
State-regulated class 2 landfill. And the Federal Government 
hasn't, for whatever reason, decided to regulate it. You have 
made some good suggestions. But based on this experience, what 
I hope you would let us see is apart from the cleanup, but what 
else should we be doing about emergency preparedness. You have 
suggested that TVA ought to move at least closer to the level 
of emergency preparedness that it has for nuclear power plants.
    Mr. Rose. That is correct.
    Senator Alexander. There may be something else that the 
State should be doing. I know Governor Bredeson would welcome 
that advice as well, and in fact, has said so. And if there is 
a Federal role on the emergency preparedness part, well, then 
Senator Carper and I and others of us ought to know that as 
well.
    So as you have this on the ground experience, if you would 
let us know that, I would appreciate it.
    Mr. Rose. I will, sir.
    Senator Alexander. Mr. Smith, I am sorry Senator Boxer 
left, because TVA made a, this is a real environmental tragedy, 
period, and it needs to clean it up. But I don't want it to 
obscure some of the things that TVA has been doing lately that 
I applaud. You mentioned in your remarks that burning coal is a 
dirty business and we need alternatives. If I am not mistaken, 
TVA has recently asked or said it would ask for 2,000 megawatts 
of renewable energy, looking for a way to buy that. It has said 
that it wants to find a way to, within a few years, to install 
conservation and efficiency provisions that would equal the 
amount of the electricity produced by a nuclear power plant.
    And it is building two new nuclear power plants, and 
contemplating a third. Now, those are big numbers. The nuclear 
power plants are 1,000 megawatts each, I guess, more or less, 
and the conservation is 1,000, and renewable will be 2,000. As 
you look toward the future, and you are pretty active student 
of energy and the environment in the Tennessee Valley, as you 
look to the fact that Tennessee already is 16th, Senator 
Carper, I would like for you to know this as well, among the 
States, Tennessee ranks 16th in production of carbon-free 
energy, about 7 or 8 percent from hydropower, the rest from 
nuclear power. Obviously, we would like for that to go up.
    As you look toward the future, what do you think the 
realistic alternatives are, and how rapidly do you think we can 
move toward them?
    Mr. Smith. Thank you, Senator. I do want to acknowledge 
that TVA has taken some important steps in the recent past to 
begin to look seriously at energy efficiency. And we are 
heartened by that. There are some real investments that they 
are looking at. We also are aware of the RFP that has gone out 
for the 2,000 megawatts, and we look forward to getting those 
results back and seeing if TVA acts on them.
    In my written testimony, one of the things that I asked 
for, and I have repeatedly asked for is, I think we need a 
system of integrated resource planning that is a requirement. 
Every investor-owned utility around the TVA service territory 
has to go through what is called integrated resource planning, 
where they look at the demand side and the looked at the supply 
side options and they find the lowest cost.
    I was part of the TVA IRP review group when they did their 
last RFP in 1995. They have not undertaken a new IRP since 
then. It is unacceptable that we are 14 years now past that and 
TVA has not updated that plan. I think that out in the 
Northwest, BPA, under the Northwest Power Planning Council, I 
think the Senator may be aware of this, they have a requirement 
for the Bonneville Power Administration to do regular check-
ins. Investor-owned utilities have done it.
    In order for us to know what is the right mix going 
forward, the right way to look at all the options necessary, we 
need to do that planning, and it needs to be done on a regular 
basis in a transparent fashion that involves stakeholders. So I 
would encourage this Committee to look at requiring that of 
TVA. It is not too hard of a lift, it is comparable to what 
other investor-owned utilities do. And it puts everything on a 
level playing field.
    I personally think we are awash in energy in this Country. 
We just use it horribly inefficiently. We can be much more 
aggressive in meeting energy efficiency and using that. I am 
excited about your vision of electric cars, because they are 
not only the ability to clean up the transportation sector, but 
in smart grid technology, they become a way of actually having 
storage for cleaner, renewable technologies like solar and 
others that can be done. And we can have those cars talking to 
the grid and communicating on a regular basis.
    These are the types of things that TVA, if they were a 
living laboratory of innovation, and we need them desperately 
going into the 21st century, that they could lead with if we 
empower them to do that and require them to have a bold vision 
and make sure we populate the board with people that have that 
vision. That is something that you can help us provide 
leadership on.
    I am eager to see that vision go forward. You are exactly 
right, important steps are being taken, but we have to hold the 
agency accountable. There is not enough oversight to make sure 
that they follow through on the things they do. Just putting 
out an RFP does not mean we are getting 2,000 megawatts of 
renewable energy. That is the first important step. But there 
are other steps that must be followed. Just spending money on 
energy efficiency doesn't cause energy efficiency to happen. We 
need to work with the power distributors in the Valley to make 
sure that happens.
    Senator Alexander. Thank you, Mr. Chairman. Madam Chair, 
she is back.
    Senator Carper. Both of us would be pleased to say you are 
welcome, and obviously pleased to welcome Senator Merkley.
    Senator Merkley. Thank you very much for your testimony.
    There were some specific facts in some of the articles 
about this disaster that I don't think have been mentioned. I 
just wonder if either of you have insight or would like to 
comment on them. One is that the containment walls were made of 
ash. They have been referred to elsewhere as earthen, but 
elsewhere it is noted that they were made from ash.
    Another factor that is noted in the articles is that there 
was a decision to remove trees from the walls and that the 
removal of those trees may have weakened the wall, if that had 
not been done properly, because the water could follow the 
pathways of the roots. And once the water starts moving, it 
erodes its way through the wall and creates a disaster.
    A third factor embedded in the articles was that while the 
TVA said they had no evidence of any fish kill, there were 
videos of significant fish kills downstream. I just wonder if 
you could comment on any of those factors.
    Mr. Rose. Senator, I can comment on the first and the 
third. Indeed, there were earthen walls that we encountered 
that were both left after the failure and before the failure. 
As to the specific composition and thickness of those walls, we 
could refer to the engineering diagram that would show you 
specific information as to what that is.
    As far as the trees, I cannot speak to that. But as far as 
the fish kill incident, the county did receive several calls 
about fish kills and responded by sending folks into the field 
and requesting assistance from the Tennessee Wildlife Resource 
Agency, particularly their biological division. The information 
that we received back from them was that the fish that were 
killed were indeed killed by being either washed up onto dry 
land and left there or they were killed by the impact of the 
wave as it moved through the water. That is what we have been 
told.
    Mr. Smith. Senator, I would like to respond to that 
question. I am not an engineer, and I don't want to represent 
myself to be one. But we have talked to engineers about this. 
What I understand is that ash is a reactive element, or 
reactive substance, and that it is not a good substance to use 
for structural integrity, because over time, it changes. 
Engineers have told me that relying on a wall of ash that is 
changing over time is a very difficult thing to know the 
structural integrity of it. I think it is one of those 
fundamental questions that needs to be explored about how EPA 
regulates this, as to whether they ought to be using ash walls 
to hold the ash itself. Because it does change over time.
    Now, as far as the fish kills, I think the story is still 
developing there. I don't disagree with Mr. Rose in his 
assessment. I think there was literally a tidal wave, maybe as 
much as 20 feet in some places, that could have mechanically 
thrown fish out of the water. My fear is not the immediate fish 
kill, my fear is the long-term ecological health of the region 
and what ends up bioaccumulating into the wildlife over time.
    Senator Merkley. Thank you very much.
    Senator Carper. I have two questions. One is of a more 
personal nature, and the other is more on target with our 
hearing. On the personal side, sometimes when witnesses appear 
before us, they have a member of their family or members of 
their family that are with them. From time to time we ask them 
to recognize and identify and introduce members of their 
family. I am looking at this audience and I am wondering if 
there might be a member of either of your families that are 
here. Mr. Rose.
    Mr. Rose. Yes, I brought my wife and my 10-year-old 
daughter with me. I felt it was very important, it is not every 
day that someone from Roane County, Tennessee gets to appear 
before a Senate committee. I felt it was important for my wife 
and my daughter to be here to see this. I would like for them 
to stand up if they would, Melissa and Jade. My daughter is a 
10-year-old fifth grader at Midway Elementary, and she is very 
interested in the way government works. She comes from a long 
line of local politicians. I thought it would be good for her. 
Thank you.
    Senator Carper. That is good. What is your daughter's name?
    Mr. Rose. Jade.
    Senator Carper. Jade. Well, Jade, some day you may sit up 
here and chair this Committee. You never know. Thanks for 
coming, and thanks for bringing your mom, thanks for bringing 
your dad. Jade, I could just barely see your lips move when 
your dad spoke. You are pretty good at that.
    Mr. Smith.
    Mr. Smith. Senator, I actually did not bring anyone. My 
wife is still in Knoxville and I have a two-and-a-half-year-old 
son who wasn't really able to make the trip up. I also was 
watching the banter back and forth about all the grandparents. 
I actually am now a new grandfather, so I am talking to my 2-
year-old son, who is an uncle. It is kind of an interesting 
dynamic.
    But I only have one grandson at this point in time, so I 
have to try to catch up with Senator Inhofe, I guess, at some 
point in time.
    Senator Carper. Good luck. He has a head start on you.
    You are good to come today, and I might add, you are very 
well represented on this Committee by our colleague from 
Tennessee.
    The question that I would like to ask is, there has been a 
fair amount of talk about mercury level in fly ash or in water. 
Could you comment on why that is? My understanding is as we do 
a better job of actually cleaning up the emissions stream, we 
end up with fly ash that is more toxic, including substances 
like mercury. But if you could, just give us some idea where 
there is so much talk about the level of mercury in fly ash on 
water.
    Mr. Smith. I think obviously mercury as a neurotoxin is a 
chemical of great concern. There is a lot of debate, as you all 
know, about the mercury maximum achievable control technology 
need to be implemented with coal-fired power plants. I disagree 
with Tom Kilgore that only relying on co-benefits is, when you 
have a selective catalytic reduction unit on the hot side of a 
scrubber, that is really all that utilities need to do to 
control mercury. I don't agree with that. I think we need to do 
more. Mercury is too dangerous a material not to be looking at 
other technologies to control it.
    I think it is not an accurate statement to say that all of 
these co-benefits equal 90 percent. I think it depends on the 
types of coals that are being burned and the particular boilers 
and other things.
    Senator Carper. I thought 90 percent sounded pretty good.
    Mr. Smith. Well, it may be overly optimistic, I guess is 
what I am saying. But here is the fundamental issue that I 
think gets back to the very reason we are here, is you can't 
have it both ways, where you are saying that you are getting 
the co-benefits of pulling the mercury out of the air in the 
smokestacks and then say there is nothing in the ash. Because 
the mercury does not disappear. If it is pulled out into the 
fly ash or the scrubber ash, it is going to be captured and it 
is going to need to be dealt with.
    So I think there is concern about what happens as we put 
more scrubbers on. I know both you and Senator Alexander have 
been strong leaders on clean air regulation. I think as we 
clean those up, we need to pay attention to where they 
ultimately go. Because if they don't go out of the stack, they 
are going somewhere, and they are ending up in the ash, and we 
need to be careful. As we deal with new technologies, we need 
to understand how those chemicals migrate in that ash, and make 
sure, that is why EPA must be on the beat. They cannot be 
asleep at the switch here. We have got to get them to regulate 
this material.
    Senator Carper. Well, we will have a new cop on the beat in 
about 2 weeks.
    Again, let me just express my thanks to each of you for 
joining us today, and for the work that you do, the good that 
you do with your lives. We appreciate your families being with 
us, too, family members.
    I just want to say one last time, as Senator Boxer and I 
have indicated, she is the Chairman of the full Committee, I as 
the chairman of the subcommittee that has jurisdiction over 
TVA, that intend to do our job with respect to oversight, both 
at the Committee level and the subcommittee level. We are going 
to continue to not only be present as we watch the work, the 
cleanup that is done in conjunction with this particular 
disaster.
    But also I am reminded of the words of an old Roberta Flack 
song, Killing Me Softly. There are different ways to hurt or to 
kill people. One can be like right away. The other could be 
over a longer period of time. We have about 25,000 people this 
year that are going to die from the stuff that we breathe, not 
the stuff that we eat or ingest, but the stuff that we breathe, 
some of which is actually emitted by not only TVA but all the 
utilities that use particularly coal. So we want to be diligent 
there, too. And we fully intend to be.
    My hope as we leave here is that TVA will leave with a 
renewed commitment to be the kind of steward that they are 
expected to be, and provide the kind of leadership that they 
are expected to provide, not just with respect to providing 
cost-effective electricity and energy, but also with respect to 
being a good environmental steward.
    Again, with that having been said, we thank you all for 
joining us today and wish you well. Thanks so much.
    This hearing is adjourned.
    
    [Whereupon, at 12:25 p.m., the Committee was adjourned.]
    
    [Additional material submitted for the record follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
                           [all]
                           
</pre></body></html>
